<html>
<title> - SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST ATTACKS IN BENGHAZI, LIBYA - HEARING 2</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                               HEARING 2

=======================================================================

                                HEARING

                               before the

          SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012
                  TERRORIST ATTACKS IN BENGHAZI, LIBYA
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

               HELD IN WASHINGTON, DC, DECEMBER 10, 2014

                               __________

 Printed for the use of the Select Committee on the Events Surrounding 
             the 2012 Terrorist Attacks in Benghazi, Libya


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
                             www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

92-592                        WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                            
                             
                             
                             
                             
                             
                             
  HOUSE SELECT COMMITTEE ON THE EVENTS SURROUNDING THE 2012 TERRORIST 
                       ATTACKS IN BENGHAZI, LIBYA

                  TREY GOWDY, South Carolina, Chairman
LYNN WESTMORELAND, Georgia           ELIJAH CUMMINGS, Maryland
JIM JORDAN, Ohio                       Ranking Minority Member
PETER ROSKAM, Illinois               ADAM SMITH, Washington
MIKE POMPEO, Kansas                  ADAM SCHIFF, California
MARTHA A. ROBY, Alabama              LINDA SAANCHEZ, California
SUSAN BROOKS, Indiana                TAMMY DUCKWORTH, Illinois

                           Professional Staff

                       Phil Kiko, Staff Director
            Susanne Sachsman Grooms, Minority Staff Director

 
                               HEARING 2

                      WEDNESDAY, DECEMBER 10, 2014

                          House of Representatives,
                              Select Committee on Benghazi,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:23 a.m., in Room 
HVC-210, Capitol Visitor Center, Hon. Trey Gowdy [chairman of 
the committee] presiding.
    Present: Representatives Gowdy, Brooks, Jordan, Roby, 
Roskam, Westmoreland, Cummings, Saanchez, Schiff, and Smith 
[via speaker phone].
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Chris Donesa, Deputy Staff Director; Dana Chipman, 
Chief Counsel; Luke Burke, Investigator; Carlton Davis, 
Counsel; Sharon Jackson, Deputy Chief Counsel; Sara Barrineau, 
Investigator; Craig Missakian, Deputy Chief Counsel; Yael 
Barash, Legislative Clerk; Paul Bell, Minority Press Secretary; 
Linda Cohen, Minority Senior Professional Staff; Ronak Desai, 
Minority Counsel; Shannon Green, Minority Counsel; Susanne 
Grooms, Minority Staff Director; Jennifer Hoffman, Minority 
Communications Director; Peter Kenny, Minority Counsel; Laura 
Rauch, Minority Senior Professional Staff; Dave Rapallo, 
Minority Staff Director; Dan Rebnord, Minority Professional 
Staff; Kendal Robinson, Minority Professional Staff; Monee 
Ross, Minority Staff Assistant; Heather Sawyer, Minority Chief 
Counsel; and Brent Woolfork, Minority Senior Professional 
Staff.
    Chairman Gowdy. I want to welcome everyone. I want to 
apologize to our two witnesses and to everyone else who has 
been waiting. Just blame me for the delay. That would be the 
quickest and easiest thing to do. But we apologize for it. And 
I will do my best to start on time henceforth.
    This is ``Hearing Number Two: Reviewing Efforts to Secure 
U.S. Diplomatic Facilities and Personnel.'' The committee will 
come to order. Chairman notes a quorum for taking testimony 
pursuant to the appropriate House Resolution number and House 
Rule number.
    I will now recognize myself for an opening statement and 
then the gentleman from Maryland.
    In September of 2012, four of our fellow Americans were 
killed and others were injured in an attack on our facility in 
Benghazi, Libya. Sean Smith, Tyrone Woods, Glen Doherty, and 
Ambassador Chris Stevens died under circumstances most of us 
cannot fathom. Fire, violence, terror, the weaponry of war.
    I want to read something and I want to ask my colleagues to 
listen to what I read, not just to the words, but I want you to 
imagine having to live through or die through the experience: 
On September the 11th, 2012, at 9:45 p.m., 20 or more armed men 
assembled outside the U.S. mission in Benghazi and breached the 
mission gate. Several Ansar al-Sharia members have been 
identified among this group. The initial attackers were armed 
with AK-47-type rifles, handguns, rocket-propelled grenade 
launchers. During this initial attack, buildings within the 
mission were set on fire. The fire set during the attack led to 
the deaths of Ambassador Christopher Stevens and Sean Smith. 
The remaining State Department personnel escaped to a nearby 
U.S. facility, known as the Annex, and also came under attack 
which continued throughout the early morning hours of September 
12th, culminating in a mortar attack that killed Tyrone Woods 
and Glen Doherty.
    What I just read is the now official position of the U.S. 
Government filed in U.S. District Court by the Department of 
Justice in a motion to detain the one defendant who has been 
captured and will stand trial.
    Twenty or more men, the weapons of war, arson, sustained 
attacks, precision mortars, terrorist groups.
    It is interesting to note the use of the word 
``terrorist,'' so rarely used in the days and weeks after 
Benghazi by people in positions of power is now the very word 
used in the very statute charging the very defendant accused of 
killing our four fellow Americans.
    ``Conspiracy to provide material support and resources to 
terrorists resulting in death.'' That's the charge. That is the 
official charge, the official position of the United States 
Government.
    But in the days after the attack in Benghazi, the word 
``terrorist'' was edited out and changed. Now the 
administration uses the word ``attack.'' In the days after the 
attack in Benghazi, the administration edited out and changed 
the word ``attack.''
    It is one thing to have it wrong initially and eventually 
get it right. It is another thing to have it right initially 
and then edit it and change it so that it is wrong.
    I remain keenly aware there are those on both sides of the 
aisle who have concluded that all questions have been answered, 
there is nothing left to do, no more witnesses to talk to, no 
more documents to review. It is worth noting that some of those 
very same folks did not think that Benghazi should have been 
looked at in the first place.
    But I disagree. I do not think we should move on until 
there is a complete understanding of how the security 
environment described by our own Government in court documents 
was allowed to exist.
    I don't think we should move on until we understand why we 
were told special precautions have been taken prior to the 
anniversary of 9/11. What precautions were taken? Where? By 
whom? Why were we told the Benghazi facility was secure? Why 
were we told it was a strong security presence in Benghazi when 
we now know that was false?
    And it wasn't true at the time it was said.
    We should not move on until there is a complete 
understanding of why requests for additional security were 
denied, by whom they were denied, and why an ambassador, 
trusted to represent us in a dangerous land, wasn't trusted to 
know what security he needed to do his job.
    It has been 2 years. And we know the requests for 
additional equipment and personnel were denied, but we don't 
have a full understanding of why those requests were denied, 
and we should not move on until there is a complete 
understanding of that and why the official position of our 
Government is so different today than it was in the days and 
the weeks after Benghazi.
    The facts haven't changed. The evidence hasn't changed. But 
the way our Government characterizes Benghazi has changed a 
lot.
    This hearing will continue our committee's efforts to 
ensure the recommendations made after the attacks on Benghazi 
are actually implemented. And I will pledge again a process 
worthy of the memory of the four who were killed and worthy of 
the respect of our fellow citizens.
    But I also pledge that we are going to keep asking 
questions until we have a complete understanding of what 
happened. And, to that end, we will have hearings in January 
and February and March and until. And that means access to all 
the documents and that means access to all the witnesses with 
knowledge. This committee will be the last best hope for 
answering the questions surrounding the attacks in Benghazi. 
And we may actually wind up answering some of the questions 
more than once. We may risk answering a question twice. That 
seems like a really small investment compared with what others 
have given and are currently giving to our country.
    With that, I would recognize the gentleman from Maryland.
    [Prepared statement of Chairman Gowdy follows:]
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding today's hearing and as well as our previous hearing 
three months ago on this topic, which was proposed by 
Congressman Schiff.
    These two hearings demonstrate the continued commitment of 
both Democrats and Republicans to making our embassies safe.
    As I have often said, this is our watch. This is not about 
today or tomorrow. This is about generations yet unborn. And so 
we all take this assignment very seriously.
    Over the course of 18 months of exhaustive investigations--
first by the independent Accountability Review Board and then 
by seven congressional committees--we have learned many answers 
to questions about what happened in Benghazi and what changes 
are needed to improve security at our diplomatic facilities 
overseas.
    But as we have also seen, when it comes to Benghazi, too 
many people are unaware that questions have been answered or 
are unwilling to accept the answers they hear.
    Our ``Benghazi on the Record: Asked and Answered'' Web site 
centralizes, in one place, these answers.
    Since we met last, the House Permanent Select Committee on 
Intelligence publicly released its bipartisan, unanimously-
adopted report. As our Intelligence Committee colleagues 
explained ``This report and the nearly two years of intensive 
investigation it reflects is meant to serve as the definitive 
House statement on the Intelligence Community's activities 
before, during, and after tragic events that caused the death 
of four brave Americans.''
    These bipartisan findings join the previous conclusions of 
the Republican-led House Armed Services Committee about the 
military's readiness and response on the night of the attacks.
    Our committee's Democratic members have urged the chairman 
to review and accept these findings as we do not think that 
there is any reason for this Committee to reinvestigate these 
facts, repeat the work already completed by our Republican and 
Democratic colleagues, and squander millions of hardworking 
dollars that come from hardworking taxpayers.
    We appreciate that the Chairman has decided to use this 
hearing to focus on constructive reform instead of retreading 
the same ground that other committees have already 
investigated. Investigated in a way that perhaps one would 
investigate something if they were looking at it under a high-
power microscope.
    We urge him to keep his focus on these constructive efforts 
and not be lured off this path by partisan politics. We are 
bigger than that, and we are better than that.
    And I appreciate you, Mr. Chairman, for our discussions 
where you have agreed by the end of the year to give us a scope 
as to exactly what we will be looking at. And hopefully we will 
be able to come to conclusions about what we do agree on so 
that we can focus on those things that we still need to 
investigate.
    I also appreciate the fact that you have agreed to meet 
with me and the Speaker tomorrow with regard to rules of the 
committee. I think you and I agree that it is nice to have 
structure because it helps us to deal with issues that may come 
up. And I do really appreciate that.
    Immediately after the Benghazi attacks, the independent 
Accountability Review Board conducted a blistering examination 
of what went wrong at the State Department and identified 29 
recommendations for reform.
    Secretary Clinton accepted every single one of them. And 
the inspector general reported, ``the Department wasted no time 
addressing the recommendations.''
    During our first hearing three months ago, Assistant 
Secretary Starr testified that the Department had closed 22 of 
the ARB's 29 recommendations.
    Since then, the Department has continued making steady 
progress. I am pleased to hear that. It has closed three more 
recommendations and continues to make progress on the remaining 
four.
    The Department has now delivered fire safety equipment to 
all but one high-threat post, and it has affirmed compliance 
with fire safety and equipment requirements in safe havens and 
in safe areas in overseas facilities.
    The ARB found that the lack of adequate fire safety 
equipment may have contributed to the tragic consequences that 
night, so I am heartened to hear that the Department has 
completed this recommendation since our last hearing.
    The Department has also closed a recommendation for 
increasing diplomatic security staffing to address the staffing 
shortcomings identified by the ARB. Mr. Starr's testimony 
indicates that the new positions are fully funded and that the 
Department intends to complete all of the remaining new hires 
by early 2015.
    The Department has also instituted mandatory threat 
training for high-risk posts and created a working group to 
develop joint risk management courses, further addressing 
shortcomings that the ARB identified with regard to the 
training and expertise of Department personnel.
    I look forward to hearing more from Mr. Starr on the work 
that remains to be done.
    We also are joined today by Inspector General Linick. In a 
September 2013 report, his office made seven security-related 
recommendations that overlapped to a large degree with the 
ARB's recommendations. I was heartened to hear that six of 
these recommendations are now closed.
    Concerns remain, however, including lingering questions 
about whether the Department has made sufficient changes to 
ensure that Department bureaus are communicating effectively 
and decisionmaking authority is centralized and clear.
    Regarding the ARB process, the Inspector General's Office 
examined the 12 ARBs convened following the 1998 East Africa 
Embassy bombings through the 2012 Benghazi attacks. They 
concluded that the ARB process ``operated as intended--
independently and without bias--to identify vulnerabilities in 
the Department of State's security programs.''
    The Inspector General nonetheless recommended adjustments 
to the process, and it is my understanding that the discussions 
on those recommendations are ongoing.
    As I close, one of these recommendations was for the 
Department to amend its Foreign Affairs Manual to 
institutionalize responsibility for ARB implementation. As the 
Inspector General's report noted, ``handling of the Benghazi 
ARB recommendations represented a significant departure from 
the previous norm in that Secretary Clinton took charge 
directly of oversight for the implementation process.'' The 
Inspector General found that the high-level attention devoted 
to this task, ``establishes a model for how the department 
should handle future ARB recommendations.''
    I am interested in hearing from Mr. Starr as to whether the 
Department has made the recommended change.
    And to that end, I yield back.
    Chairman Gowdy. Thank the gentleman from Maryland.
    [Prepared statement of Mr. Cummings follows:]
    Chairman Gowdy. The committee will now receive testimony 
from today's witness panel. First witness will be the Honorable 
Gregory B. Starr, the Assistant Secretary for Diplomatic 
Security at the Department of State. The second witness will be 
Honorable Steve Linick, the inspector general for the 
Department of State.
    Welcome to both of you. Again, my apologies for you having 
to wait on me.
    You will each be recognized for your 5-minute opening. 
There are a series of lights that mean what they traditionally 
mean in life.
    With that, Secretary Starr.

    STATEMENTS OF THE HONORABLE GREGORY B. STARR, ASSISTANT 
 SECRETARY FOR DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE; 
    AND THE HONORABLE STEVE LINICK, INSPECTOR GENERAL, U.S. 
                      DEPARTMENT OF STATE

          STATEMENT OF THE HONORABLE GREGORY B. STARR

    Mr. Starr. Thank you, Chairman Gowdy, Ranking Member 
Cummings, and distinguished committee Members. Thank you for 
inviting me again to update you on the State Department's 
progress in implementing the recommendations made by the 
independent Benghazi Accountability Review Board, and I will 
refer to that in the future as the ARB.
    I would like to acknowledge my copanelist, inspector Steve 
Linick. Inspector Linick works closely with the Bureau of 
Diplomatic Security on many issues, some of which the committee 
has highlighted for discussion today. And although I am focused 
primarily on the Benghazi ARB implementation today, I hope to 
be able to provide some insights into how the Department works 
with the Inspector General's Office to ultimately improve 
security around the world.
    The task of keeping U.S. personnel overseas safe is dynamic 
and an ever evolving process. We work constantly to improve our 
practices and protect our people.
    The ARB process is an important tool towards that goal, and 
today we are safer and more secure because of the 
recommendations of the Benghazi panel and other ARBs.
    Our progress on the Benghazi ARB is measurable and 
sustained. And, importantly, many of the lessons learned are 
further incorporated into policy. Of the 29 recommendations, we 
have now closed 25 of them. That includes three that we have 
closed since September, my last testimony, based on further 
work and analysis.
    We are committed to finishing the work yet to do on the 
final four recommendations and will not lose sight of 
continuing and building on the security and procedural 
improvements that have already been instituted.
    I would like to highlight just a few examples of what we 
have done to improve our security posture since the attacks in 
Benghazi. These are specific, tangible changes.
    We have more Diplomatic Security and Department of Defense 
personnel on the ground at our facilities today.
    We have increased the skills and competencies for 
Diplomatic Security agents by increasing the training time in 
the high-threat course.
    We have expanded the Foreign Affairs Counter Threat course 
for our colleagues beyond high-threat posts because we 
recognize that the value of these skills extends to all foreign 
service personnel and other employees at our posts overseas. 
These are skills that people can take with them to make us 
safer and make them safer in every post that they are at.
    There are broader, more programatic changes. One which I 
discussed in September is the launch of the Vital Presence 
Validation Process, or our shorthand for that is VP2. Through 
VP2, the State Department asks itself hard questions to balance 
the risks and the benefits at our highest threat posts. The end 
result is a clear-eyed risk assessment of whether the U.S. 
should operate in those dangerous locations and, if so, how do 
we operate.
    Where the process determines that U.S. national interests 
require us to operate at dangerous posts, the Department 
undertakes measures to mitigate identified risks and 
prioritizes resources to do so.
    The steps we have taken to implement the Benghazi ARB 
recommendations underscore an important point. We live in a 
world with more unstable and dangerous locations. Our foreign 
policy often demands that we send our people to work in those 
very places that are increasingly perilous.
    We cannot eliminate risk. The threats evolve. As a result, 
the work of securing our facilities and safeguarding our people 
is never complete. We are committed to implementing the ARB's 
recommendations, but we are also committed to looking forward 
to meeting the new challenges and threats as they develop.
    Our best assets in this effort are our people. Our highly 
trained foreign service officers and security personnel are out 
in the field every day executing U.S. foreign policy. They 
deserve the credit and thanks for the work that they do on our 
behalf.
    It is our job to do everything we can to reduce the risks 
they face. As the Assistant Secretary for Diplomatic Security, 
I am committed to keeping our people as safe as possible.
    I know that the committee as well as the Inspector 
General's Office shares our commitment in making that true, 
keeping our people as safe as possible.
    With that, Mr. Chairman, I would be happy to answer 
questions from the committee about the implementation of the 
ARB.
    Chairman Gowdy. Thank you, Mr. Starr.
    [Prepared statement of Mr. Starr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Mr. Linick.

            STATEMENT OF THE HONORABLE STEVE LINICK

    Mr. Linick. Chairman Gowdy, Ranking Member Cummings, and 
Members of the Committee. Thank you for the opportunity to 
testify regarding our review of the ARB process and associated 
work we have conducted in recent years on security-related 
matters.
    Since the September 2012 attacks on U.S. diplomatic 
facilities and personnel in Benghazi, the OIG has redoubled its 
oversight related to security, issuing inspection and audit 
reports specifically targeting security matters. In addition to 
that work, we inspect posts across the globe, and we review 
security-related matters at each one.
    In my comments today, I will address the ARB process and 
discuss findings based on our other security-related work.
    In September 2013, OIG published its report on the special 
review of the Accountability Review Board process, the process 
by which the Department's ARBs are established, supported, 
staffed to conduct it.
    The special review also examined the manner in which the 
Department tracks the implementation of ARB recommendations.
    We found that follow through on long-term security program 
improvements involving physical security, training, and 
intelligence sharing lacked sustained oversight by the 
Department's principals. The lack of follow through explains in 
part why a number of Benghazi ARB recommendations mirror 
previous ARB recommendations. We concluded that the 
implementation of ARB recommendations works best when the 
Secretary of State and other Department principals take full 
ownership of the implementation process.
    OIG's special review made 20 formal recommendations. In May 
of 2014, I notified the Deputy Secretary of State for 
Management and Resources of the status of those 
recommendations, and I provided additional suggestions and 
intended to enhance the effectiveness of the ARB process.
    Although some of our recommendations related to the special 
review and my later suggestions remain unresolved at this time, 
OIG has found evidence that the Department has made progress in 
addressing some of the security concerns.
    During fiscal year 2015, we will be conducting a formal 
follow-up review on compliance with our own recommendations and 
with the Benghazi ARB recommendations.
    In addition to the ARB review process, OIG has issued a 
variety of reports covering significant security matters. I 
take this opportunity to highlight four areas of concern.
    The first relates to physical security deficiencies. OIG 
reports demonstrate that the Department is at increased risk 
because it lacks sufficient processes and planning to ensure 
that the Department fully understands the security needs and 
priorities at posts around the world. If the Department cannot 
identify security vulnerabilities, it cannot adequately plan, 
budget for, or implement solutions.
    In 2012, OIG conducted a series of audits of posts located 
in Europe, Latin America, and Africa, which identified physical 
security deficiencies at nine embassies and one consulate that 
required immediate attention. A number of these posts were 
designated high-threat. OIG auditors found that the posts were 
generally not in compliance with the Department's physical and 
procedural security standards.
    Security deficiencies common among the posts included, 
among others, the failure to meet minimum compound perimeter 
requirements and to properly conduct inspections of vehicles 
before entering posts.
    The most egregious problem that we found in these audits 
and have identified in recent inspections is the use of 
warehouse space or other remote facilities for offices which do 
not comply with standards and places personnel at great risk.
    The second area of concern involves exceptions and waivers 
granted from compliance and security standards. OIG has found 
that a number of overseas posts had not maintained accurate 
exception and waiver records. In addition, OIG found that the 
Bureau of Diplomatic Security was not monitoring posts to 
determine whether they were obtaining waivers and exceptions 
for deviations from standards.
    The Department has reported that it has remediated that 
condition at this time.
    The third area of concern involves stovepiping of security 
issues. Although the Bureaus of Diplomatic Security and the 
Overseas Building Operations share responsibility for ensuring 
posts' physical security needs, they don't adequately 
coordinate.
    The fourth issue of concern relates to vetting of local 
guards. DS oversees local guard forces that are a critical part 
of security at Department missions overseas. They typically are 
posted outside or just inside the perimeter of the embassy 
compound and are often responsible for searching vehicles, et 
cetera.
    We conducted an audit of the DS local guard and noted in 
June 20 of 2014 that none of the six security contractors 
reviewed by OIG fully performed the vetting procedures 
specified. One bad actor with the right position and access can 
seriously endanger the safety and security of personnel 
overseas.
    In conclusion, security issues have been and continue to be 
a top priority for my office. I want to thank my staff for 
their professionalism and commitment to this effort. I look 
forward to continuing to engage with the Department and 
Congress over these matters in the coming months in an effort 
to mitigate risks and avoid future incidents like the attacks 
that occurred in Benghazi.
    Chairman Gowdy, Ranking Member Cummings, and Members of the 
Committee, thank you again for the opportunity to testify 
today. I look forward to your questions.
    Chairman Gowdy. Thank you, Mr. Linick.
    [Prepared statement of Mr. Linick follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. The chair will now recognize the gentlelady 
from Indiana, Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And thank you both for appearing here today and for your 
service to our country.
    As the inspector general, Mr. Linick, and all inspector 
generals for all agencies, would it be correct to say that 
generally you are charged with ensuring that in this case that 
the State Department is effectively managed and accountable for 
its decisions? Is that what inspector generals do?
    Mr. Linick. Yes.
    Mrs. Brooks. And you conduct audits. We have heard you talk 
about audits, evaluations. The way inspector generals do that 
is they conduct audits, evaluations, inspections. And you have 
just mentioned some of those. Is that correct?
    Mr. Linick. Yes. And we look at programs and operations as 
well.
    Mrs. Brooks. And so you are like the internal watchdog or 
internal police department for an agency and for the State 
Department specifically.
    Mr. Linick. Yes.
    Mrs. Brooks. But you are not appointed by the Secretary of 
State. Is that correct?
    Mr. Linick. No. I was appointed by the President and 
confirmed by the Senate.
    Mrs. Brooks. And when were you appointed?
    Mr. Linick. I was appointed in September of 2013.
    Mrs. Brooks. So that means that actually you have complete 
independence, don't you, from the State Department and the 
decisions that they make?
    Mr. Linick. Yes, we are independent.
    Mrs. Brooks. And before that, you actually, as I 
understand, like myself, were Federal prosecutor, focused on 
fraud types of matters.
    Mr. Linick. I was for 16 years.
    Mrs. Brooks. And, in your finding that you undertook of the 
ARB, it is my understanding that you felt--and this is 
quoting--your most important finding was that the oversight of 
the ARB recommendations must be at the highest levels within 
the Department. Is that correct?
    Mr. Linick. That's correct.
    Mrs. Brooks. And what highest level were you referring to?
    Mr. Linick. At least at the Deputy Secretary level.
    Mrs. Brooks. And, in your opinion, is that where the 
implementation of the ARB recommendation stands at this point?
    Mr. Linick. That remains an unresolved recommendation. We 
did receive revisions to the Foreign Affairs Manual yesterday, 
and we are looking at them now.
    Mrs. Brooks. And so the recommendation--and that 
recommendation was made by the IG that, in fact, the Foreign 
Affairs Manual should specifically state to other employees of 
the Department that these recommendations would be undertaken 
by the, at a minimum, Secretary of State or the highest levels, 
the principals like the Deputy Secretary. Is that correct?
    Mr. Linick. That is correct.
    Mrs. Brooks. And so you have stated that, in fact, they 
have provided that to you yesterday.
    Mr. Linick. Yes. We did receive a revision to the Foreign 
Affairs Manual, but we have not analyzed it yet. So the 
recommendation remains unresolved.
    Mrs. Brooks. And so let's talk about unresolved or closed 
and findings. When the inspector general makes recommendations 
and brings forth their findings, they are in several different 
categories. Is that correct?
    Mr. Linick. That is correct.
    Mrs. Brooks. Unresolved, closed, resolved.
    Mr. Linick. Exactly, yes.
    Mrs. Brooks. Can you share with us what ``unresolved'' 
means?
    Mr. Linick. So there are really two buckets. There are open 
recommendations and closed recommendations. Open 
recommendations can either come in two forms: They can be 
resolved or unresolved. So if the Department agrees in 
principle with a recommendation, that will be open and 
resolved. It will not be closed until the Department proves to 
us--because we are in the trust but verify business--you know, 
that it, in fact, has been implemented.
    An open recommendation which is unresolved means generally 
the Department disagrees with the OIG. And we don't have 
resolution on that. So it remains open as well.
    Mrs. Brooks. Can I just ask--and sorry to interrupt--
approximately how many open and unresolved recommendations are 
there?
    Mr. Linick. In the ARB report?
    Mrs. Brooks. Yes.
    Mr. Linick. At this time, there are seven unresolved 
recommendations. Like I said, a couple of them that--that might 
change. We are also doing a compliance follow-up review, which 
means we are actually going and doing another inspection to see 
whether or not our recommendations actually have been complied 
with.
    Mrs. Brooks. Is that common practice, that you always do 
that--compliance reviews of your recommendations?
    Mr. Linick. We don't always do that. It is very resource-
intensive. Typically what would happen is the Department would 
come back and say, here is documentation showing that we have 
implemented your recommendation and we would close it.
    The compliance follow-up review is really a different 
animal because we actually do a completely separate inspection 
or audit to--and actually do interviews and test whether or not 
implementation has occurred. It is not something we do 
frequently. We do it in cases where we believe the 
recommendations are significant or where we felt that 
compliance was lacking.
    Mrs. Brooks. And do you also, when you go back and do the 
compliance review, do you also look into recommendations that 
have been closed?
    Mr. Linick. Yes. We look at all of the recommendations from 
soup to nuts to see where they stand. So just because we have 
closed them because we have documentation we are going to go 
behind that documentation and verify whether, in fact, it has 
been implemented.
    Mrs. Brooks. Are you aware as to whether or not prior 
inspector generals actually ever did what you are doing with 
respect to compliance reviews when it comes to physical 
security of our Embassies?
    Mr. Linick. I believe our office has done some compliance 
follow-up reviews.
    Mrs. Brooks. But is it fair to say that a number of the 
recommendations that were in the Benghazi ARB were also in the 
Nairobi ARB?
    Mr. Linick. Oh, absolutely. We did see a number of repeat 
recommendations, from enhancing training to enhancing the 
Marine Security Guard program, to enhancing interagency sharing 
and so forth.
    Mrs. Brooks. So there have, obviously, been previous ARBs 
where recommendations were made where the State Department 
closed or agreed with the recommendations but yet we still had 
the same problem.
    Mr. Linick. That is correct.
    Mrs. Brooks. In 2012.
    Mr. Linick. That is correct.
    Mrs. Brooks. So, with respect to the closed--and there are 
a number of closed recommendations--what do you expect to 
happen--what does ``closed'' mean? You have talked about open 
and unresolved. What do closed recommendations mean?
    Mr. Linick. Closed recommendations mean they provided 
documentation to us to prove that they've complied with the 
recommendation. In the compliance follow-up review, we will 
interview and look more closely and drill down to see whether 
or not it is, in fact, closed.
    So closed is a preliminary conclusion, if you will, about 
the status of the recommendation.
    Mrs. Brooks. And, in fact, when would you have received 
the--when you have made the decision that something was closed 
or not closed?
    Mr. Linick. We would make that decision after our 
compliance follow-up team, we have a special team that does 
this, reviews the documentation and then determines whether 
that documentation, in fact, meets the intent of our 
recommendation.
    Mrs. Brooks. But, in fact, as late as June of 2014, in 
fact, you just mentioned physical security deficiencies, 
exceptions in waivers, stovepiping, and vetting of local guards 
are still unresolved and so are not closed.
    Mr. Linick. Those--those were recommendations from other 
reports. In other words--so we have done--we have done the ARB 
review, and we have focused on process and we have focused on 
how they implemented the ARB recommendations. We have issued a 
number of other reports which identify, among other things, 
lack of compliance with standards, and inadequate vetting of 
local guards. And we made a whole bunch more recommendations in 
connection with those reports, and they are at various stages 
of closure, et cetera.
    Mrs. Brooks. The Best Practices Panel's most important 
recommendation--you are familiar with the Best Practices Panel, 
which happened after the ARB, are you not?
    Mr. Linick. I am indeed.
    Mrs. Brooks. In fact, it, too, indicated that elevating the 
importance of security and making diplomatic security an equal 
partner was its most important recommendation. Is that correct?
    Mr. Linick. I believe that was recommendation number one.
    Mrs. Brooks. And yet we learned at that time at our last 
hearing that the State Department rejected that recommendation. 
Has there been a change from our last hearing to today?
    Mr. Linick. Well, we are not monitoring compliance with 
that recommendation, so I don't know the answer to that 
question.
    Mrs. Brooks. Do you know with respect to this exact 
recommendation, and that is the fact that we believe--and that 
panels have made the recommendation that, in fact, all of the 
implementation of the various recommendations of the ARB should 
be made at one of the highest levels. These are the principals. 
Is that correct? The principals under the Secretary of State?
    Mr. Linick. Yes, that is correct.
    Mrs. Brooks. And, in fact, the oversight right now in the 
implementation is being made in the Office of Management Policy 
and Rightsizing. Is that correct?
    Mr. Linick. I believe they are tracking the implementation 
of it, yes.
    Mrs. Brooks. And that is actually what Mr. Starr said. And 
``tracking'' just means, is it being done? Is that correct?
    Mr. Linick. We think that the Deputy Secretary ought to 
take responsibility for oversight of the implementation, that 
she take responsibility for making sure that those 
recommendations are followed through, that there is sufficient 
funding to ensure that they are completed and that they are 
adequately shared among the State Department community so 
everybody knows what they are, why they are important. That is 
what we are seeking with our particular recommendation.
    Mrs. Brooks. Do you know who at the State Department, at 
the time that they rejected that recommendation, and that 
recommendation was rejected, do you know who at the State 
Department made that decision to reject that recommendation?
    Mr. Linick. The Sullivan recommendation or our 
recommendation?
    Mrs. Brooks. Both. The recommendation to reject that the 
Deputy Secretary should be the level responsible for 
implementing all of these recommendations.
    Mr. Linick. As to the Sullivan recommendation, I don't know 
who--who, if anyone, rejected that. I know the Deputy Secretary 
is considering our recommendation. And, in fact, I believe, 
like I said, there is a revision to the Foreign Affairs Manual 
which apparently does embody that. But we haven't closed that 
yet because we haven't had the opportunity to analyze it and 
assess it.
    Mrs. Brooks. And, Mr. Starr, do you know who made that 
decision at that time?
    Mr. Starr. I don't believe that there was a decision not to 
comply with that recommendation.
    Two things, Congresswoman. One, it was the Secretary 
himself who ultimately decided that we did not need an Under 
Secretary after consideration through various levels of the 
Department.
    In terms of the implementation of the ARB, the paperwork 
that we have put forward to modify the FAM does show that it is 
the Deputy Secretary for Management and Resources who will be 
the oversight officer for ARBs.
    And if you would permit me, just for a second. While this 
is a change to the FAMs, I have been in multiple meetings since 
the arrival of Deputy Secretary Higginbottom, and I was in 
multiple meetings beforehand while Tom Nides was still the 
Deputy Secretary, where the Deputy was taking direct charge of 
the oversight of the implementation of the ARB recommendations.
    The MPRI group is the staff that is tracking them and then 
bringing these up and presenting them to the Deputy Secretary. 
And then we have had multiple meetings where myself, major 
officers from all the regional bureaus, the Deputy Secretary 
heading the meeting, plus MPRI, plus CT, plus the other bureaus 
have been in these.
    So I think it is very clear that the Deputy Secretary and 
our highest levels have been involved in the implementation of 
the ARB. What we are doing now is making sure that it is 
codified in the FAMs.
    Mrs. Brooks. Thank you, Mr. Chairman.
    I yield back, but I would like to add, it is about time. 
Thank you.
    Chairman Gowdy. Thank the gentlelady from Indiana.
    The chair will now recognize the gentlelady from 
California, Ms. Saanchez.
    Ms. Saanchez. Thank you, Mr. Chairman.
    I want to welcome and thank both witnesses for being here 
today.
    And I want to follow up on this line of questioning with 
respect to the physical security of Embassies and mission 
facilities.
    Two of the past ARB recommendations that remain open, if I 
am not mistaken, are from the 1999 Nairobi and Dar es Salaam 
ARBs. And in those ARBs, they recommended that physical 
security upgrades be made immediately and that State work to 
obtain sufficient funding for building programs because that 
was a need that was identified.
    And as a result of those recommendations, the Capital 
Security Cost Sharing Program was initiated to pay for the 
costs of building new Embassies and consulates. Is that 
correct?
    Mr. Starr. That is correct.
    Ms. Saanchez. With funding constraints and other challenges 
delaying efforts to better secure its facilities, how is the 
State Department addressing the need to provide necessary 
security at this point?
    Mr. Starr. Congresswoman, thank you for the question.
    Congress has been extraordinarily generous with the 
Department. Since the Nairobi bombings in 1998, we have 
constructed nearly 100 new facilities around the world.
    We have done major security upgrades to our facilities 
around the world that we could not replace right at that 
moment.
    There is not a post out there that doesn't have anti-ram 
walls and vehicle bars and gates, does not have guard programs, 
police protecting it, forced entry doors and windows, shatter-
resistant window film. Now, after Benghazi, additional Marines, 
additional RSOs.
    We have been committed since, quite frankly, since 1985 in 
increasing the programs.
    I think the funding that we originally got under the 
Capital Cost Sharing Program was about $1.3 billion a year. And 
by 2012, 2013, instead of the original six or eight facilities 
that we were able to build a year, we were building perhaps one 
or two, perhaps three because of inflation costs.
    After Benghazi, Congress was again very generous with the 
Department and has authorized almost another billion dollars. 
And we are now, again, on an enhanced building program, 
building about six or seven new facilities a year.
    So I would say that while that recommendation remained 
open, technically, the Department, with the help of Congress, 
has done an amazing job enhancing the safety and security of 
our people through the years.
    I will not say that it is perfect. Clearly, I am here, and 
my job is to implement reforms after Benghazi and lessons that 
we have learned. We made mistakes there. But for the vast 
majority of places, I would tell you that the recommendations 
that came out of the Dar es Salaam and Nairobi bombings and 
those ARBs, we have assiduously been trying to implement those, 
and Congress has been very helpful.
    Ms. Saanchez. Could you give me an idea, Mr. Starr, because 
it is a big job to try to go back and renovate facilities and 
bring them up to modern security standards.
    Could you estimate how many facilities you are talking 
about that you have to deal with in terms of assessing the 
physical security of those buildings? Ballpark figure.
    Mr. Starr. There are 275 U.S. Embassies, consulates, and 
consulate generals. There are approximately 10 other special 
missions. The facilities that make up those missions number 
over 1,000 different buildings.
    Ms. Saanchez. It is quite an undertaking, then, to 
consistently be upgrading their security. Would that be a fair 
statement?
    Mr. Starr. I think that is a fair statement.
    Ms. Saanchez. Now, the Benghazi ARB found that the State 
Department must work with Congress to restore the Capital 
Security Cost Sharing Program at its full capacity.
    Can you talk a little bit about the history of the funding 
and why Congress needed to restore to the full level the 
Capital Security Cost Sharing Program?
    Mr. Starr. Thank you, Congresswoman.
    As I alluded to just a moment ago, the original costs 
coming out of the Nairobi and Dar es Salaam ARBs were 
approximately $1.3 billion a year.
    In 1999 and 2000 and 2001, as we geared up the program, 
that gave us the ability to replace six, seven, eight, 
sometimes nine facilities a year--or individual buildings at 
least--and do some major security upgrades.
    But that funding level was constant from about 2000 until 
about 2012.
    Increased building costs, inflation and other things had 
reduced what we could do with that $1.3 billion. So we were 
hopeful, and, as I say, Congress was very generous in 
recognizing that that number had been eroded by inflation, and 
after Benghazi and I think in line with the ARB recommendation, 
worked with the Department and added nearly another billion 
dollars to that.
    So we are currently at approximately $2.3 billion under the 
Capital Cost Sharing Program per year, which has allowed us to 
do more security enhancements and build and replace more 
unsecure facilities.
    Ms. Saanchez. Thank you. It is important to note that 
Congress does play a role in making sure that these facilities 
are physically secure.
    Mr. Starr, I would also like to ask you about temporary 
facilities.
    During our previous hearing, a number of members had 
questions about the diplomatic facility in Benghazi--whether it 
was a special mission compound or a temporary mission facility 
and whether the term used meant less stringent physical 
security standards applied to that facility.
    That issue was investigated by the ARB and numerous 
congressional committees over the past two years. At our last 
hearing, you addressed this concern, explaining, and I am going 
to quote from your testimony, ``whether it is temporary or 
interim or permanent, that we should be applying the same 
security standards that the OSPB has put in place.''
    Is that still your understanding of how the Department is 
applying these standards today?
    Mr. Starr. Yes. That is a very hard lesson that we learned 
after Benghazi. I can tell you that in one particular location 
in the world--I won't say it--where we have had to have 
operations where we were under great pressure to put people in 
and establish a temporary facility, I turned that down and said 
that we will continue to operate solely on a TDY basis until 
such time as we can identify a facility and bring it up to the 
necessary level of security in order to declare it a facility, 
i.e., meeting the OSPB standards for that type of facility.
    I got no pushback from the Department and, in fact, got a 
tremendous amount of support for this.
    I think you have correctly identified that the Benghazi--
whatever you call it, the temporary facility or the special 
mission facility--despite efforts to do security upgrades to 
it, we know that it did not meet all of the standards. And we 
want to avoid a situation like that going forward.
    Ms. Saanchez. I just want to point out that Mr. Linick, in 
his written testimony, noted in a March 2014 audit on physical 
security funding that diplomatic security and the Overseas 
Building Operations Bureau have differing interpretations of 
what the required physical security standards are for those 
overseas facilities. And the same IG report notes that in 
January 2013, the Department clarified that a single standard 
applies to all facilities.
    In June 2013, the Department further clarified that the 
OSPB standard set forth the minimum requirements.
    Has there been better communication now between the 
Department and the Diplomatic Security and Overseas Building 
Operations and an agreed-upon standard for what those physical 
standards should be?
    Mr. Starr. There is no disagreement on what the physical 
security standards should be. Those standards are in our 
foreign affairs manuals and foreign affairs handbooks. They are 
approved by the Overseas Security Policy Board. And there is no 
disagreement on the standards.
    We do have different standards for a, let's say a 
standalone building or an office that is in tenent commercial 
office space.
    But OBO, Overseas Buildings Operations, is very clear and 
understands what those standards are. There is no 
misunderstanding what the standards are and that they are 
there.
    I do think that the Inspector General's inspections have 
been very helpful to us in many ways. Although sometimes I will 
disagree with some of the recommendations, and as Steve alluded 
to, we have some open recommendations where we may disagree. 
Ultimately, we come to resolution on the vast majority of them.
    In terms of what the inspectors found in some of their 
reports, it is my job as the head of security when we find 
security deficiencies that the IG may find to make sure that we 
are addressing them as fast as possible.
    And Steve's inspectors in one instance did find that we had 
some significant differences between OBO and DS at a post 
overseas. I met 2 days after the inspectors came back with the 
head of OBO, we resolved those differences, and we have moved 
on and settled the differences and made the decisions on where 
we have to go.
    I meet virtually every week with the head of OBO. My staff 
meets at lower levels with OBO, and we have taken that 
recommendation very seriously.
    Ms. Saanchez. Appreciate your testimony.
    And I yield back.
    Chairman Gowdy. Thank the gentlelady from California.
    The chair would now recognize the gentleman from Georgia, 
Mr. Westmoreland.
    Mr. Westmoreland. Thank you, Mr. Chairman.
    And thank you for being here.
    Mr. Starr, just a point of clarification.kv When they use 
the term ``closed'' on the recommendations, that does not mean 
they are completed. Correct?
    I didn't know it was that hard a question.
    Mr. Starr. As Steve alluded to, there is resolved; there is 
closed. We do our best when we get a recommendation to look at 
it and determine----
    Mr. Westmoreland. But ``closed'' does not mean the 
recommendation has fully been implemented. Right?
    Mr. Starr. Closed--in most cases, it does. It means that we 
have, in fact, effected the change that was necessary to meet 
that recommendation.
    There are some recommendations that I would say, sir, are 
evergreen recommendations. If we put the policies and 
procedures in place and have to go through it, they may go on 
for a longer period of time.
    Mr. Westmoreland. Thank you.
    You were in diplomatic security at the State Department 
from 1980 through your retirement in 2009. Is that correct?
    Mr. Starr. Yes, sir. I was an agent.
    Mr. Westmoreland. And from then, you went to head of the 
security for the United Nations?
    Mr. Starr. Correct, sir.
    Mr. Westmoreland. And, at the U.N., you were the Under 
Secretary to Safety and Security. Correct?
    Mr. Starr. Yes, sir.
    Mr. Westmoreland. Is it true your Office of Diplomatic 
Security, or the DS, and the Bureau of Overseas Buildings 
Operations, or the OBO, are the two offices within the State 
Department that have the primary duty to ensure the safety and 
security of these overseas facilities?
    Mr. Starr. That is an accurate statement, sir.
    Mr. Westmoreland. According for the Foreign Affairs Manual, 
your office is expressly charged with the responsibility for 
ensuring that all new construction and major renovations comply 
with physical security standards even though the OBO does the 
actual construction. Is that true?
    Mr. Starr. Correct.
    Mr. Westmoreland. And under--which Under Secretary is the 
DS?
    Mr. Starr. I serve--I am under Under Secretary Kennedy, the 
Under Secretary for Management----
    Mr. Westmoreland. And who is the Under Secretary? OBO?
    Mr. Starr. Yes.
    Mr. Westmoreland. Also.
    And the Under Secretary for Management, Mr. Kennedy, has 
been in a position since November of 2007, I believe? Is that 
correct? You don't know.
    Mr. Starr. I believe so, sir, but I am not certain of the 
date.
    Mr. Westmoreland. Okay. Has Mr. Kennedy been with the State 
Department, as far as you know, from the early 1970s?
    Mr. Starr. I think Pat came in in about 1975.
    Mr. Westmoreland. Okay. In fact, when the East African 
Embassies were bombed in 1998, Mr. Kennedy was in your 
position. Is that correct?
    Mr. Starr. At the time of the bombing, sir, my recollection 
is that we had a vacancy in the position and Under Secretary.
    Mr. Westmoreland. He was the acting.
    Mr. Starr. He was the acting.
    Mr. Westmoreland. Okay. And although you returned to the 
State Department after the Benghazi attacks, you are aware that 
virtually each and every finding and resulting recommendation 
in the Benghazi ARB centered on the special mission compound or 
facility being a high-threat post sorely lacking in personnel 
and physical security. Is that correct?
    Mr. Starr. I am aware of those recommendations in the ARB, 
sir, yes.
    Mr. Westmoreland. Are you aware that your own inspector 
general, Mr. Linick, since Benghazi, has conducted three 
reviews or audits in physical security issues at overseas posts 
particularly in these high-threat posts?
    Mr. Starr. Yes, I am, sir.
    Mr. Westmoreland. Are you also aware that the IG issued two 
other reports, one that looked at how you manage your local 
guard program and another that looks at how you manage your 
Marine security?
    Mr. Starr. Yes, sir, I am.
    Mr. Westmoreland. Let's take a look at the IG report issued 
in June of 2013 that looked at how you comply with the physical 
security standards at five specific overseas posts that are 
considered high threat. Do you recall that report?
    Mr. Starr. Yes, sir.
    Mr. Westmoreland. As I understand it, that report only 
looked at Embassies or consulates that were constructed after 
the year 2000. Is that correct?
    Mr. Starr. I believe so, sir.
    Mr. Westmoreland. So all built after the East African 
Embassy bombings in 1998, where an ARB was sharply critical of 
the then-existing physical security standards. Is that correct?
    Mr. Starr. I would say the Inspector General pointed out 
that there were some deficiencies in not meeting some of the 
standards.
    Mr. Westmoreland. That means that they were all built after 
Congress passed the Secure Embassy Construction and 
Counterterrorism Act, as it is known, and gave the State 
Department a whole lot of money to improve those physical 
security overseas. Is that correct?
    Mr. Starr. Correct.
    Mr. Westmoreland. So, in this report, the IG team looked at 
physical security at the five posts that had a high-threat 
level and the audit team looked at such things as the height of 
the perimeter walls, the outside boundary, how far the 
buildings were from those outside walls, looked at the anti-ram 
barriers, the procedural--other barriers or resistant doors.
    Whether the local guards, which we have talked about prior, 
were properly inspecting, whether there were safe havens inside 
the building, and the like. Is that correct?
    Mr. Starr. Yes, sir.
    Mr. Westmoreland. So let me ask you how the five Embassies 
or consulates did. Did any of them comply with all of the 
security standards that were reviewed?
    Mr. Starr. No, sir. None of them are perfect.
    Mr. Westmoreland. Okay----
    Mr. Starr. If I may, sir. Every one of those facilities has 
police and guards on the outside. Every one of those 
facilities----
    Mr. Westmoreland. I understand. I know. But my question 
was, had all of them been met? And your answer was no.
    Mr. Starr. No, sir. I want to make it clear, though, that 
most of the things that the Inspector General found were minor, 
do not present major vulnerabilities to us. Our philosophy of 
concentric rings of security----
    Mr. Westmoreland. Okay. I have got some more questions.
    Mr. Starr [continuing]. I don't expect that any Inspector 
General going out, any teams, is not going to find some things 
that can be improved.
    Mr. Westmoreland. I understand. But your answer was no. 
Correct?
    Mr. Starr. Correct, sir.
    Mr. Westmoreland. Now, the overseas post in question, once 
the problems were identified, took some sort of action to 
correct all the deficiencies. But you said they were very small 
deficiencies. Is that correct?
    Mr. Starr. In relation to what vulnerabilities they posed, 
yes, sir.
    Mr. Westmoreland. So at least at some of these posts, those 
problems have been fixed. Is that correct?
    Mr. Starr. It is my job to make sure that any time we see 
one of these vulnerabilities----
    Mr. Westmoreland. Are they fixed?
    Mr. Starr. Yes, they are. They are resolved.
    Mr. Westmoreland. Did the inspector general ask that you 
issue a directive to all your posts worldwide to see whether 
other posts have the same problems?
    Mr. Starr. For some things, yes.
    Mr. Westmoreland. Okay. Did you agree to do this?
    Mr. Starr. No, I did not.
    Mr. Westmoreland. Oh, okay.
    Mr. Linick, I want to follow up on another review of the 
physical security related posts overseas. I understand that 
your office hired an outside company to review how the State 
Department processes these requests and prioritizes requests 
for these physical security upgrades.
    Mr. Linick. Yes, sir.
    Mr. Westmoreland. When the auditors looked at this, did 
they find a comprehensive list of all these reports or the 
deficiencies?
    Mr. Linick. They didn't find a comprehensive list of 
security needs and requests for security needs at posts around 
the world.
    Mr. Westmoreland. So they didn't find a list of what may 
have been called in or asked for?
    Mr. Linick. They did not--they did not find a list.
    Mr. Westmoreland. Okay. Were the auditors able to review a 
list of these funding requests or a list of which requests were 
denied or granted?
    Mr. Linick. There wasn't a list.
    Mr. Westmoreland. So there wasn't a list.
    Mr. Linick. No.
    Mr. Westmoreland. From DS, no list?
    Mr. Linick. We did not find a comprehensive list of----
    Mr. Westmoreland. OBO, no list?
    Mr. Linick. No. But I understand they are working on that 
right now.
    Mr. Westmoreland. Okay. Is it true that the auditors found 
that the DS and OBO do not coordinate with each other to 
determine which requests should be given a priority?
    Mr. Linick. They did find that in two respects. One, there 
were disagreements about the standards, which have since been 
remediated, which Mr. Starr had mentioned.
    Mr. Westmoreland. So the fact that Mr. Starr and the OBO 
get together once a week or once a month or whatever it is, 
they still not come up with any of these lists that could be 
combined to be looked at?
    Mr. Linick. I don't believe we have seen a comprehensive 
list. But I am not entirely sure of that so I would have to get 
back to you.
    Mr. Westmoreland. Do you know of any comprehensive lists 
that may have been put into long-term planning for the future 
security of the request that has been made from these posts?
    Mr. Linick. I know the Department has agreed to do it and 
so that recommendation has been resolved. But it still is open.
    Mr. Westmoreland. Thank you.
    I yield back, Mr. Chairman.
    Chairman Gowdy. I thank the gentleman from Georgia. We are 
now going to try to go to the gentleman from Washington, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman. Can everybody hear me?
    Chairman Gowdy. Yes, sir.
    Mr. Smith. Thank you. And I really appreciate your 
flexibility for this [Sound difficulties.]
    Chairman Gowdy. Adam, I may get you to act like you are mad 
and yell a little bit. I think the witnesses--we can hear you 
pretty good but not great. So if you could act like we are 
talking and you are yelling at me.
    Mr. Smith. Trey, do you need me to repeat that? Do you need 
me to repeat what I just asked?
    Chairman Gowdy. Yes, sir. The witnesses are kind of leaning 
forward. If you could yell it as loud as you are willing to do 
it, Adam.
    Mr. Smith. I will do that. I will repeat the question. My 
question was, there have been attacks before, and one of the 
allegations of the Benghazi ARB is that after those attacks, 
like the Embassy bombing in Africa, we issued a report, and we 
just sort of Groundhog's Day. We don't make improvements. We 
don't respond. In my reading of what has happened since some of 
those previous attacks, I don't believe that that is accurate. 
I was just wondering if you gentlemen could outline--as one 
example, the 1998 Embassy bombings in Africa--what improvements 
were made as a result of the study of that problem? How much 
more money was spent? How were facilities upgraded? What has 
been done prior to Benghazi, to actually improve security at 
our overseas facilities?
    Mr. Starr. Congressman, thank you for the question. This is 
Greg Starr. I recognize that there are some similarities in the 
types of recommendations that were made going back through the 
years on ARBs, but I, like you, find it difficult to accept the 
premise that it is Groundhog Day, that we are just revisiting 
the same things.
    As I said before, a tremendous amount of progress was made 
through the years in building new facilities, in training 
different personnel, in adding local guard programs. Much of 
this work was done in concert with Congress. Congress has been 
very helpful in many ways in terms of funding and oversight. 
From 1988 to 1992, after the original Inman Commission, we 
built 22 new facilities. But then, after the end of the Cold 
War, the money sort of dried up and ran out, even though we 
wanted to build nearly 100. After the bombings in 1998, the 
money flow for building new Embassies was given to us by 
Congress very generously, and we have replaced a tremendous 
amount of facilities. We have never had to give up one of those 
new facilities that we have built yet.
    I think the increases that we have done in training for our 
personnel, additional Marine detachments, things like more 
armored cars, and the things that we have done after Benghazi, 
the better, much closer relationships with the intelligence 
community and DOD, I think some of those things you can say, 
Well, weren't you doing those things, you know, after Nairobi? 
Weren't some of those things said in the ARBs? And there are 
some similarities, but I think the types of things we are 
facing are similar as well. I think we are going to see similar 
types of attacks. You may get, even in the future, the need for 
more training than we are even doing now. So I appreciate the 
comments because I believe, like you do, that while there may 
be some similarities, this is not Groundhog Day. We have made 
significant progress since Nairobi and Dar es Salaam. There are 
very few ARB recommendations through all of the ARBs that have 
been left open, and those few that are open we are still 
working to close. So thank you for the question, sir.
    Mr. Smith. One of the big issues about Benghazi, not all 
State Department facilities are the same. I mean, when we think 
of our State Department presence overseas, I think most people 
typically imagine our embassy, the main facility. But as 
everybody knows, we have a number of different facilities where 
people are located throughout the world. One of the most 
dangerous places that I went to was Peshawar, where we have a 
consulate in Pakistan, a few years back--very dangerous place, 
very high security.
    Now, when you are determining what security to provide when 
you go to these temporary mission facilities or to the annexes 
or consulates and--specific to Libya, specific to the two 
facilities that were attacked--how would they have fallen under 
the new rules implemented after some of these other attacks, in 
understanding how to properly provide security for two 
facilities like the ones that were in Benghazi, which were not 
traditional Embassies or even consulates for that matter? Is 
this something that had been contemplated previously, and if 
so, what was the discussion about how to properly provide 
security for these different types of facilities?
    Mr. Starr. Unfortunately, sir, I am at a little bit of a 
loss. As one of the Congressmen has pointed out that while 
those discussions were taking place on what was going to happen 
for Benghazi, I was at the United Nations. I do know that we 
have all accepted the recommendations from the ARB, that 
perhaps there was a little too much confidence in the chief of 
mission and what he was saying, that we know that we did not 
meet all of the OSPB standards for either of those two 
locations, either the special annex or the special mission. I 
know that we are concentrating on learning the lessons from 
that. We have no temporary facilities today, no temporary 
facilities at all. And should we have to have those types of 
facilities, we will have a very long, hard discussion about 
what needs to go into them and make sure that they are as safe 
and secure as possible before we would let them be occupied. I 
am just at a little bit of a loss. I can't comment on things 
that happened when I wasn't here, sir.
    Mr. Smith. We talked about two other, I think, huge issues 
when it comes to providing security at our overseas facilities. 
Number one is money, particularly at this point, and I might 
also add particularly at the moment that Benghazi was attacked. 
I don't imagine that there have been too many times in the 
history of our country when we had as many facilities 
throughout the globe that could not have been perceived to be 
at a high-threat level. First of all, it was the anniversary of 
9/11. Second of all, we had already in the days prior, had 
riots and attacks on Embassies in I forget how many different 
countries. I certainly know in Cairo why the Embassy was 
attacked, and I think in somewhere close to a dozen others, we 
had that. The number one issue, and I will let you--well, I 
will mention them both.
    The number one issue is simple resources. In a world full 
of incredibly dangerous places, how do you decide how to 
properly allocate resources between a Benghazi and a Cairo and 
a Peshawar and Sana'a, and Yemen, and all those different 
places? What role--Congress, as you said, has been generous 
after some of these previous attacks, but there is still finite 
resources, number one. How do you make those decisions when 
there are so many places to protect?
    And then the second issue that I have encountered is, quite 
frequently, the chief of mission will disagree. The chief of 
mission will go to places where maybe the folks back in 
Washington, D.C., have said that he or she should not. There 
are many, many members of the State Department out in other 
countries who feel that their hands are being tied. In fact, I 
have heard this complaint now from a large number of State 
Department people referring to it as the ``Benghazi effect'', 
that they can no longer do their job because we have gone back 
the other way and tried to be too cautious. Those are two very 
difficult issues, resources and then the conflict between a 
member of the State Department out in a foreign country in a 
dangerous place trying to do his or her job versus meeting the 
security. How do those two things get balanced throughout the 
State Department and throughout all of your security team?
    Chairman Gowdy. Adam, before they answer, this is Trey. 
There is less than a minute on the clock, but given the 
technical difficulties, I am going to let them answer this 
question in full and give you another question, given the 
difficulties we had on the front end, but I wanted to let you 
know where we were in terms of time.
    Mr. Smith. Right. That is my last question.
    Chairman Gowdy. Okay. Answer as long as you need to, Mr. 
Starr and Mr. Linick.
    Mr. Starr. Thank you, Congressman. On the question of 
resources, you are correct, while Congress has been very 
generous with us, I am not going to sit here and say that it is 
solely a question of resources. Every year we look at every 
post in the world in concert with the Emergency Action 
Committee, in concert with the intelligence community, in 
concert with my threat analysis, and in concert with the 
regional bureaus; and we rate those threats for civil disorder, 
for terrorism, for crime, and for a couple of other things, and 
we rate them critical, high, medium, or low threats. Those 
ratings help us determine how to best allocate resources. We 
start with a base position that every one of our facilities 
should meet the minimum OSPB standards, and as Steve has 
pointed out, there are some times where we have problems even 
doing that. When we find it, we upgrade them as fast as we can 
and make sure that they are there. There are many posts that we 
have to go very far above the minimum standards because of the 
specific nature of the threats, and the threats can differ.
    At a place where it is a threat of a car bomb, we are 
looking for additional setback. We are looking for additional 
barriers. When it is mob attacks, we may be looking at 
additional reinforcements in terms of the military on the 
ground. But we look at those threats at least for every single 
post in a formalized manner every single year, and I start my 
day every single morning with a threat roundup and looking at 
what is out there and make determinations whether or not we 
need to reinforce or do something at our Embassies. As you 
correctly pointed out, that does translate into problems 
sometimes where we have officers that feel that they can't get 
out. We often have places where we have to balance getting the 
job done with an officer's individual security and what the 
threats are. I think that is a healthy tension. I want Foreign 
Service officers that want to get out and want to get the job 
done. And I want posts that are looking closely at what the 
threats are and whether they should get out. Now, at our 
highest threat level posts, I think you will that find some of 
our officers may be frustrated sometimes because the security 
has to be overwhelming in many ways, has to be very strong. And 
the rest of our posts around the world, our people are getting 
out. Our people are engaging. Foreign Service officers are 
building democracy. There are rule-of-law programs, justice 
programs, USAID programs, humanitarian programs, and they are 
fulfilling those requirements. It is a balance, and it is a 
dance, I agree, but it is an important one, and the tension is 
good.
    Mr. Linick. Congressman, this is Steve Linick.
    Just a couple of comments to add on to that. We haven't 
looked at the sufficiency of resources, but our work in the 
resource area concerns how resources are prioritized. In other 
words, does the Department know what its resources are? Does 
the Department know what requests are made? Do they know how to 
prioritize across the board? That is really the point of the 
report that we issued on the topic of resources, which has been 
referenced already. And if the Department cannot make a 
determination as to which projects are high priority, then it 
is going to be difficult to solve problems and develop budgets.
    As to the second question on the Benghazi effect, I think 
ultimately this comes down to good risk management, and the 
ARB's first recommendation discussed the need for the 
Department to make sure there is a mechanism in place to weigh 
policy concerns against risks. One of our recommendations was 
that this is so important that this should be elevated to the 
highest levels of the Department so that someone who is in a 
position of weighing policy considerations, namely whether we 
maintain presence in certain very dangerous areas, can make 
that determination and also be responsible when they have to 
sign on the dotted line and put people at temporary facilities 
or wherever in high-threat posts.
    Mr. Smith. Can I just quickly follow up on that last point, 
and then I will be done. I think the problem and the issue when 
you say take it up to that higher level, but once you have 
taken it up to that higher level, isn't that person further 
away from the specific understanding of a given country or a 
given area? In some ways if you are going up to someone who's 
at that deputy level, they are more distant from the problem 
and in some ways probably less qualified to make the call on 
whether or not a given action is proper for the security 
environment. Isn't that one of the reasons why the State 
Department has been reluctant to implement that specific 
recommendation?
    Mr. Linick. I am not sure whether or not they have been 
reluctant to adopt that recommendation. I know they have their 
VP2 risk management system, and I don't know to what extent 
that answers the question of raising risk management at a 
higher level. I guess I would say that we know that some of 
these decisions involve competing interests. At the lower 
levels, you have got your policy folks and then your security 
folks. Somebody has to be in charge of reconciling some of 
these competing interests because we know our policy folks want 
us to be in places. They want us to be out doing diplomacy. And 
our security folks want to minimize risk. So what we are saying 
is there needs to be somebody who is managing those competing 
interests and then taking responsibility for those decisions.
    Mr. Smith. All right. Thank you very much, Trey. And thanks 
to the committee for the flexibility for allowing me to 
participate by phone.
    Chairman Gowdy. Adam, thanks for participating. Take care 
of yourself, and we will see you in January.
    Mr. Smith. Thank you.
    Chairman Gowdy. With that, the chair would now recognize 
the gentleman from Ohio, Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    Mr. Starr, safety is critically important, and I appreciate 
what you said in your written testimony. You said we want to 
keep our people safe. We will continue doing everything we can 
to support and protect them. It shouldn't be a partisan issue, 
should it? Republican, Democrat, shouldn't matter?
    Mr. Starr. I don't think that is a partisan issue, sir. I 
have never had a problem up on the Hill where that is an issue.
    Mr. Jordan. No. I wasn't insinuating that. I am just saying 
that these people put their lives on the line. It doesn't 
matter whether you are Republican, Democrat, who you are, what 
side you come from, the simple test should be, are the policies 
and actions we are putting in place making people safe. You 
would agree?
    Mr. Starr. Yes, sir.
    Mr. Jordan. From Secretary of State Madeleine Albright this 
after--it was a cyber security breach, but my guess is she 
would refer to any security breach. She said this, and I quote, 
``Even a score of 99 out of 100 is a failing grade.'' That is a 
pretty strong statement, and I understand we don't live in a 
perfect world. You have talked about that. We live in a 
dangerous world, and you have got to balance diplomacy with 
security and safety concerns, but I think the tenor of her 
statement was what we just talked about. Safety is critical, 
and we should do everything we can. It is of paramount 
importance. We should do all we can to make sure our people are 
safe. You would agree with that, wouldn't you, Mr. Starr?
    Mr. Starr. I need to try to do that, sir, but I will just 
add one inflection on this and that our primary and most 
important goal is to carry out the foreign policy of the United 
States Government.
    Mr. Jordan. I understand. I understand the balance.
    Mr. Starr. And then while doing that, we have to do 
everything we can to safeguard our people.
    Mr. Jordan. I get it. I get it. Mr. Starr, the number one 
question I get back home about Benghazi, the number one 
question I get, why were we there? Why were we there? It seems 
to me it is a fundamental question, especially in light of the 
very dangerous security situation that existed in Benghazi and, 
frankly, some other key facts. We have talked about this 
before, but Mr. Starr, the State Department has its own 
standards for physical security, the Overseas Security Policy 
Board standards. Were those followed with the Benghazi 
facility?
    Mr. Starr. No, sir, they were not met.
    Mr. Jordan. And when you deviate from the standards, there 
is a waiver process that you are supposed to adhere to. Was the 
waiver process followed?
    Mr. Starr. I do not believe so, sir, no.
    Mr. Jordan. No. Mr. Keil was here just a few months ago, 
and he said neither the standards or the waiver process was 
followed. And the State Department had a special designation 
for the Benghazi facility. Isn't that correct, Mr. Starr. 
Didn't you guys call it the temporary mission facility or the 
special mission----
    Mr. Starr. I think it was the temporary mission facility or 
special mission facility.
    Mr. Jordan. And was this a term created solely to do an end 
run around the standards and the waiver process?
    Mr. Starr. Sir, I don't believe anybody intentionally tried 
to run around the waiver or the standards process. I think it 
was a question that it was neither an Embassy or a consulate. I 
think they were trying to find----
    Mr. Jordan. If I could Mr. Starr, when Mr. Kyle testified 
here just 3 months, sat right there beside you, a gentleman 
that served 23 years at the State Department, he said, in 
talking with people and based on my experience, it was a 
purposeful effort to skirt the standards. Let me ask it this 
way.
    Mr. Starr. Well, I would disagree with Mr. Kyle.
    Mr. Jordan. Okay. He has got a pretty good record, like you 
do as well, Mr. Starr. How many facilities does the State 
Department--diplomatic facilities--does the State Department 
currently have around the world?
    Mr. Starr. 275 Embassies, consulates and consulate 
generals, composing approximately 1,000 buildings.
    Mr. Jordan. Your Web site says you have 285 U.S. diplomatic 
facilities worldwide. Is that accurate?
    Mr. Starr. 275 consulates, Embassies, consulate generals, 
and there are approximately 10 special missions, such as----
    Mr. Jordan. Okay. Of the 275 or the 285, whatever number 
you want to use, are any of those today designated temporary 
mission facility or special mission compound?
    Mr. Starr. No.
    Mr. Jordan. None of them?
    Mr. Starr. None.
    Mr. Jordan. Which sort of brings me back to my question, 
Mr. Starr. What was so important about Benghazi that we didn't 
follow our own standards; we didn't follow the waiver process; 
we created a term that is not used at any of our facilities, 
any of the 285 today, special mission compound or temporary 
mission facility, a designation not used anywhere else today? 
What was so important that we do all that to be in Benghazi; we 
do all that to be in a place where four Americans were killed?
    Mr. Starr. Sir, I would have to refer you to the results of 
the ARB, which I think address that.
    Mr. Jordan. No, no. You are the witness from the State 
Department. I am asking you.
    Mr. Starr. I was not there when those determinations were 
made, and today we do not have facilities like that.
    Mr. Jordan. No, no, no. I am asking you as the 
representative from the State Department to tell me what was so 
important that we don't follow the standards; we don't follow 
the waiver process; we create a new term out of thin air, and 
none of the facilities today--we are the United States of 
America. We have got more facilities probably than any other 
country in the world, 285, and none of them use that 
designation today.
    Mr. Starr. Correct.
    Mr. Jordan. Tell me what was--why--we were in Tripoli. Why 
did we have to be in Benghazi?
    Mr. Starr. I would have to refer you to the ARB, sir.
    Mr. Jordan. Well, let me add to it. Maybe this will help 
you think about giving us an answer. In the 13 months prior to 
the attack on 9/11/2012, there were 200 security incidents in 
Libya, IED, RPG, assassination attempt on the British 
Ambassador. I mean, this was the Wild West. Repeated requests--
here is the thing--repeated requests from our security 
personnel at the facility, repeated requests for additional 
security. They said we need more help. We need more good guys 
here. You guys said, Nope, we are not sending. In fact, what, 
they had you reduced. So again I ask, that situation, probably 
the most chaotic situation that we have around any of our 
facilities, a whole new term, don't follow the standards, don't 
adhere to the waiver process, why were we there?
    Mr. Starr. Sir, I think the ARB points out that there were 
mistakes made. I think it is very obvious that we had a tragedy 
that occurred, and I am not denying that a tragedy occurred.
    Mr. Jordan. None of us are saying that. I am trying to get 
answers from you.
    Mr. Starr. What I am saying is that I think we have to 
learn from that lesson. I am not the witness to tell you what 
happened----
    Mr. Jordan. You are the State Department representative 
here at the hearing on the select committee to find out what 
happened. The most fundamental question is, why were we there 
in the first place?
    Mr. Starr. I am here to discuss the things that we have put 
in place since the ARB and what we are doing to protect our 
people now.
    Mr. Jordan. Let me ask you one other thing. Let me ask you 
another thing here. Do you happen to know the name of the 
government that was in place when we had those 200 security 
incidents in the 13 months leading up to this tragedy? Do you 
happen to know the name of the government that was in place 
when we had the IED attacks, the RPG attacks, the assassination 
attempt on the British Ambassador, what was the name of the 
Libyan Government at the time, Mr. Starr. Do you know?
    Mr. Starr. No, I don't offhand.
    Mr. Jordan. I will tell you. The Transitional National 
Council, Transitional National Council. Not exactly a title 
that inspires confidence, screams stability, does it, Mr. 
Starr? And yet we had to be there. We just had to be there. Now 
this committee, this committee is going to try to find out the 
answer. Since won't give it to us, since you won't hazard a 
guess, this committee is going to try to find out the answer. 
But, in the meantime, we are going to make sure we keep focused 
on what we started our conversation here about, Mr. Starr, and 
that is the safety of our people who serve abroad.
    Now, there was one good thing that came out of the ARB, one 
good thing. They said we are going to have a best practices 
panel, and that best practices panel made 40 recommendations, 
and the most important one is the one that Mr. Linick talked 
about earlier. The number one recommendation--frankly, the one 
that many of the other 39 hinge upon--says we need to create at 
the Under Secretary level, an Under Secretary for Diplomatic 
Security. Is the State Department going to do that, Mr. Starr, 
at the Under Secretary level?
    Mr. Starr. A decision has been made not to implement that 
recommendation.
    Mr. Jordan. You are not going to do it. How many Under 
Secretaries are there at the State Department, Mr. Starr?
    Mr. Starr. I believe there is seven.
    Mr. Jordan. I think there is six, based on the chart you 
just gave us: Under Secretary for Political Affairs; Under 
Secretary for Economic Growth and Energy and Environment; Under 
Secretary for Arms Control and International Security Affairs; 
Under Secretary for Management; Under Secretary for Civilian 
Security, Democracy, and Human Rights; and the Under Secretary 
For Public Diplomacy and Public Affairs.
    And yet we can't have an Under Secretary for the security 
of our people who risk their lives every day around this 
planet. You know the Under Secretary for Public Diplomacy and 
Public Affairs, do you know what part of the job description of 
that Under Secretary? To foster cultural exchange in 
international broadcasting. Now I am not saying cultural 
exchange in international broadcasting isn't important. All I 
am saying is the safety of the people who serve at these 285 
facilities should be just as important. And you guys say, Nope, 
we are going to keep you way down here, Mr. Starr. In fact, you 
are the one--diplomatic security, Assistant Secretary, as Ms. 
Brooks pointed out, you are way down the chart. Why don't you 
want to move from the kids table to the adult table, Mr. Starr? 
Why don't you want to move on up to the Under Secretary level? 
Did you make that case to Secretary Kerry and say, I think 
security is important enough I should be at the Under Secretary 
level? Did you make that case?
    Mr. Starr. The case that I made to the Secretary was that 
in any instance that I needed to get to the Secretary and the 
access that I needed with him, the Deputy Secretaries or the 
Assistant Secretaries, I had to have the access necessary to do 
my job.
    Today I have that access. Whether I am an Under Secretary 
or an Assistant Secretary--and I have been the Under Secretary 
General For Safety and Security at the United Nations, and that 
is a different organization--I can tell you that, regardless of 
whether I am the Under Secretary Or the Assistant Secretary, I 
have the control and the access that I need to fulfill my 
responsibilities.
    Mr. Jordan. I will tell you this, Mr. Chairman, if I could. 
I will tell you this. I remember at Thanksgiving, it was a lot 
easier to make the argument at the adult table than it was to 
try to do it from the kids table. I would rather be there. In 
fact, I am not the one who thinks it is the greatest idea in 
the world. I think it is a great idea, but I am not alone. 
Clear back in 1999, Secretary Albright said the same thing. She 
thought we should have this at the Under Secretary level. Todd 
Kyle and the Best Practices Panel thought we should have it at 
the Under Secretary level, and the guy sitting beside you 
thinks we need to elevate this to the highest level.
    So I guess we got two big questions that this committee 
needs to answer. Why in the world won't the State Department do 
what everyone knows needs to be done, elevate this position to 
the highest level that we can, make it equal with cultural 
exchange in international broadcasting? And then the big 
question, again, that I hope we get an answer to in this 
committee, why were we there? Why were we there with these 
facts and these circumstances? That is a fundamental question 
that the American people want to know and the families of these 
four individuals who gave their lives would like to know as 
well.
    With that, I yield back.
    Chairman Gowdy. I thank the gentleman from Ohio.
    The chair recognize the gentleman from Maryland, the 
Ranking Member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all, I would like to thank our witnesses for being 
here today.
    In particular, I want to thank you, Secretary Starr.
    I listened to what was just stated and asked, but my 
concern--and I am sure it is the concern of this entire 
committee--is that when all the dust settles, that the request 
of every single family member that we met--when the dust 
settles, I hope it is carried out, and that is--that our 
facilities are safer so that things like this unfortunate 
incident does not happen again.
    The Department's update shows continued strong progress 
towards full implementation of the ARB's recommendations. As 
the Benghazi ARB reminded all of us, ``The total elimination of 
risks is a nonstarter for U.S. diplomacy, given the need for 
the United States Government to be present in places where 
stability and security are often most profoundly lacking and 
host government support is sometimes minimal to nonexistent.''
    Nonetheless, we owe Americans serving overseas our best 
efforts to keep them as safe as possible. Mr. Starr, I want to 
commend you for dedicating your career to achieving that goal. 
I have no doubt that you are committed and determined to see 
the implementation of these recommendations through. According 
to your testimony, since September 17, that hearing we held 
that day, the Department has closed three more Benghazi ARB 
recommendations. One of the three that you closed involves the 
hiring of additional diplomatic security personnel. Is that 
right? I think that was recommendation No. 12.
    Mr. Starr. Yes, sir.
    Mr. Cummings. And your October letter said that you had 
filled 120 of those 151 newly created slots. Do you still 
expect to complete your hiring by early 2015?
    Mr. Starr. We are on track to do that, sir.
    Mr. Cummings. And what is entailed in that? Is it hard to 
find people?
    Mr. Starr. In some cases, actually, because we have very 
high standards and some of these positions are very technical, 
we have had some difficulties.
    But, sir, I would like to point something out. The 
recommendation was to get increased diplomatic security 
personnel for high and critical threat posts and for additional 
mobile security deployment teams. The 151 positions asked for 
additional people for positions beyond those two things. We 
have already created every one of the positions in MSD for the 
mobile security teams and at our posts overseas, taken agents 
that were already on board, filled those positions in those 
locations. And what we do is back hire now to fill the 
positions that we took those more experienced agents out of and 
put the new ones there. So we have fulfilled the recommendation 
of what it is, even though we continue to hire some additional 
personnel. I think we have more than fulfilled that 
recommendation.
    Mr. Cummings. So you are still missing some people, though, 
because you are moving people?
    Mr. Starr. Right. We are still hiring to fill the people 
that we put in behind there. Although the agents have all been 
hired, it is a couple technical specialities that we are 
filling in behind.
    Mr. Cummings. Okay. You also closed the recommendation 
related to risk management courses and enhanced threat training 
for personnel at these high-risk posts. How will this training 
better prepare our diplomats in high-threat regions?
    Mr. Starr. We have increased the Foreign Affairs 
Counterthreat Training that we offer to our Foreign Service 
personnel now, not just people going to our high-threat, high-
risk posts. Every one of them has to go through that training, 
and prior to this, we did not quite have the capacity to do 
that. We are now increasing that training to everyone in the 
entire Foreign Service over the next 4 years. Additionally, the 
Foreign Service Institute has put courses in that are 
complementing our skills-based training, courses like ``How to 
Conduct Diplomacy in a High-Threat Environment,'' which brings 
back officers from some of these tough places and shows best 
practices on how you accomplish your job when you are faced 
with things like sometimes you can't travel to the ministry; 
sometimes there is different types of security requirements. So 
I think we are addressing it both through skills-based training 
on security and in the Foreign Service Institute on training 
our people before they go into these high-threat environments, 
how do we best do our jobs.
    Mr. Cummings. So the third closed recommendation was to 
procure fire safety equipment at high-threat posts. Mr. Starr, 
is that complete?
    Mr. Starr. It is complete with one exception, sir. I have 
one post where the equipment is sitting, a specific type of 
respirator mask is sitting one country away, and I am trying to 
get it in today and tomorrow to that post, and we have had some 
customs issues, but we have delivered the types of equipment 
and the training in conjunction after talking with the New York 
City Fire Department and others to all of our high-threat posts 
around the world.
    Mr. Cummings. Would you get us a notification when you have 
completed that one thing you just said?
    Mr. Starr. I will, sir.
    Mr. Cummings. So they are receiving the training? Everybody 
has received the training on this equipment?
    Mr. Starr. We have worked closely with the fire department 
to identify the equipment, and then when we ship the equipment 
out, there are training programs on the equipment. And then 
there are other things that OBO has done in terms of fire 
safety as well.
    Mr. Cummings. With the closure of those three 
recommendations, that leaves four recommendations still open. 
Is that right?
    Mr. Starr. Yes.
    Mr. Cummings. Your October letter shared with us target 
dates to complete implementation of those final four 
recommendations. Are you on track to complete those 
recommendations?
    Mr. Starr. We are on track, sir. The one that will stretch 
the longest is the implementation of a new type of CCTV camera 
at our posts overseas. The technical requirements associated 
with that have been more difficult than we first envisioned. We 
have a schedule to do it. I hope to have it done by fall of 
2015. I am leery that it might go longer than that, so one of 
the things we are saying is that it will absolutely be done by 
the summer of 2016, but we are pushing to get it done earlier 
than that.
    Mr. Cummings. And the other three, when will they be 
complete?
    Mr. Starr. I believe that the recommendation concerning co-
location waivers will be done within probably 2 months. The 
recommendation concerning assignment durations for high-threat 
posts, we have essentially fulfilled that recommendation. We 
are working with Congress to look at something called a dual-
compensation issue so that, if necessary, we can bring back 
highly talented officers. I believe that we can close that 
recommendation regardless of whether or not we get approval for 
the dual-compensation waiver, so I think we will have an answer 
in terms of closing that recommendation within 2 months as 
well. And there is one further classified recommendation that 
we are on track to close, but I would prefer not to discuss it 
in this hearing.
    Mr. Cummings. As I said in our previous hearing, I want to 
make sure again things get done, and so I want you to get back 
to us exactly when you expect--I would like to have that in 
writing--when you expect these things to be done, and provide 
the committee with that information because we want to hold you 
to that. All right?
    Mr. Starr. As the inspector general has said, there is also 
going to be a review of our compliance as well, so it is not 
only you, sir, the Inspector General----
    Mr. Cummings. We will call it double coverage.
    Mr. Starr. Exactly, and I will get back to you on that.
    Mr. Cummings. All right. Now, Mr. Starr, Representative 
Westmoreland discussed with you and the Inspector General the 
June 2013 audit that took place before creation of the High 
Threat Programs Directorate. The audit found some security 
deficiencies at posts it examined. Is that correct?
    Mr. Starr. Yes, sir.
    Mr. Cummings. Mr. Starr, and I will ask you when the 
Inspector General's Office released its 2014 report on High 
Threat Programs Directorate, one of the Inspector General's key 
findings in that report is that this newly created body, 
``helped create a culture of shared responsibility for security 
within the Department and has forged strong partnerships with 
regional security officers and counterparts in regional and 
functional bureaus as well as within the interagency 
community.'' I think that is an extremely positive finding, 
given the fact that the Accountability Review Board considered 
the lack of shared responsibility around security issues to be 
systemic failure just two years ago.
    Mr. Starr, could you discuss how you think the creation of 
the high-threat program has created a culture of shared 
responsibility in the State Department? And then my final 
question, to tell us how does this culture of shared 
responsibility that the IG praises improve the safety and 
security at our Embassies abroad?
    Mr. Starr. Thanks for the question, Congressman. We have 
addressed this in many different ways. The High Threat 
Directorate itself, just by the fact that we concentrate on 
looking every single year at our top 30 posts, the ones that we 
worry about the most, the VP2 process that we are in the 
process of conducting for those 30 posts, the fact that we have 
written into every senior officer's job description and every 
officer in the State Department their individual 
responsibilities for security, the fact that I have officers 
that are attending the meetings of the regional bureaus every 
single week, in some cases every single day, and when we are 
looking at the programs, we are also talking about the security 
implications therefore, I think have highlighted the fact that 
none of us can operate independently of considerations of 
security at this point.
    I think there has been a culture change in the Department. 
I think having to weigh the importance of our programs and why 
we are in very dangerous places under the VP2 process has 
brought a laser-like focus on why we are there, what the real 
threats are, and have a clear understanding of the threats, not 
ignoring the threats, what we have done to mitigate those 
threats, and then a decision at the end of that--is our 
presence still adequate, and is our presence warranted despite 
all these things--I think has brought a new culture to the 
Department in many ways.
    I think that I have never seen security taken as seriously 
as it has been in the last 2 years, and I say that not lightly 
because I have been here a long time, and security has been 
taken seriously for many, many years in the Department. But I 
think some of these processes that we have put in place at this 
time are new to the Department and are doing exactly what the 
ARB wanted and what you are talking about. Is it working itself 
into the culture? And the answer is yes.
    Mr. Cummings. Right. And the culture is very significant. 
It is one thing when you have got an aberration. It is another 
thing when you actually believe in something, you are doing it 
every day, and it becomes a part of your DNA, that is the DNA 
of the State Department.
    Mr. Starr. Yes, sir. I would add one other thing, sir. The 
officers that are reaching the senior ranks of the Department 
today in many cases have spent significant amounts of time over 
the last decade in places like Iraq, Pakistan, Afghanistan, 
Sana'a, Yemen, Cairo, other places where we have true security 
problems. The officers that I work with today, every single day 
at my level and above, are keenly aware that security must be 
balanced with our program implementation. They have lived it.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Gowdy. Thank the gentleman from Maryland.
    The chair will now recognize the gentlelady from Alabama, 
Ms. Roby.
    Mrs. Roby. Thank you, Chairman Gowdy.
    Mr. Linick, are you familiar with the 1997 OIG 
recommendation regarding the need to prioritize MSG detachments 
at diplomatic posts using a methodology based on the OSPB 
security standards?
    Mr. Linick. I am vaguely familiar. I wasn't here in 1997.
    Mrs. Roby. Okay. Are you aware that it was closed in 1998?
    Mr. Linick. I think that is right. I think that is right.
    Mrs. Roby. And to the extent you can answer this, it was 
closed because the Department amended its memorandum of 
agreement with the Marine Corps to include procedures for 
establishing the size of existing detachments and procedures 
for activations and deactivations. Is that correct?
    Mr. Linick. I don't recall why it was closed without 
looking at the documents.
    Mrs. Roby. Well, in 2014, your office again looked at 
whether--at where and how Marine Security Guard detachments 
were being utilized at the State Department posts overseas. Is 
that correct?
    Mr. Linick. That is correct.
    Mrs. Roby. And were you able to determine whether there is 
a methodology for prioritizing and assigning new MSG 
attachments to overseas posts and whether that methodology was 
effective?
    Mr. Linick. Our auditors found in that report that there 
were no formal procedures to select or identify posts. They 
couldn't show how the Marine Security Guard units compared with 
other posts. There was no formal plan for expansion. They 
simply just didn't have the processes and procedures that one 
would normally think you would have.
    Mrs. Roby. So you weren't able to figure out how DS makes 
the determination of where these Marines go?
    Mr. Linick. We were not.
    Mrs. Roby. And is it the same or similar issue to your 
knowledge--I know you don't seem as familiar with the 1997--but 
the Inspector General then told DS to create a process or 
methodology to select posts, so this is a similar situation. 
Correct?
    Mr. Linick. I will accept that premise.
    Mrs. Roby. Okay. So how can we on this committee have 
confidence that recommendation 11 from the Benghazi ARB made 
just 2 years ago, that the Department and DOD will provide more 
capabilities at higher-risk posts? How can we have the 
confidence that that will be fully implemented?
    Mr. Linick. Well, that is the challenge of closing 
recommendations. We have a compliance follow-up group that I 
can tell you what they do now, and they do look very closely at 
the actions that the Department takes to close recommendations. 
They wouldn't close it unless they felt that there was 
significant progress.
    Mrs. Roby. Mr. Starr, I am going to follow up with you on 
this point. According to the OIG, only 40 percent of the new 
MSG detachments have been assigned to posts with high or 
critical rating for political violence terrorism. In light of 
your last statement in the previous questions, you said you 
have never seen security taken so seriously in the past 2 
years. Well, how does the fact that only 40 percent of the 
high-risk, high-threat posts have these Marine security guard 
detachments, how does this satisfy the ARB recommendation 11 to 
expand that program to provide more capabilities and capacities 
at higher risk posts?
    Mr. Starr. Thank you for the question, Congresswoman. There 
is actually a very clear, very simple answer for this. Most of 
the posts that are high threat, high risk already had Marine 
Security Guard detachments at them. That is why the 40 percent 
number is there. Of the 30 posts that we ranked as our highest 
threat, highest vulnerability, 19 of them already had Marine 
Security Guard detachments. We have added two to those. Of the 
remaining nine posts, five of those posts, there is no one 
there. The post is in name only. We don't have people on the 
ground, Mogadishu, Herat----
    Mrs. Roby. Let me interrupt you for just a second.
    Mr. Linick, do you agree with those numbers?
    Mr. Linick. I haven't confirmed those numbers, so I don't 
know.
    Mrs. Roby. Okay.
    Mr. Starr. And there are several other posts. There is 
about four posts in that high-threat list where we would like 
to put Marine Security Guard detachments; the host government 
has not allowed us to do that. But the reason that that figure 
seems very strange is that in the vast majority of cases, we 
have already got Marine detachments at those places that are 
high threat.
    Mrs. Roby. Let's be very clear about this, Mr. Starr. How 
many current high-risk threat posts do not have MSG 
detachments?
    Mr. Starr. Of the 30 highest-risk, highest-threat-level 
posts, nine do not, but five of those nine are not functioning 
posts. They are closed. So four.
    Mrs. Roby. Do you agree with that, Mr. Linick, or do you 
not know?
    Mr. Linick. I don't know.
    Mrs. Roby. Okay. Is there a timetable, Mr. Starr, in place 
for assigning the MSG detachments to the, you say four posts? 
Is there a timetable?
    Mr. Starr. I would like to do it tomorrow, but I will tell 
you I find it unlikely that I am going to be able to assign 
Marine detachments to those posts.
    Mrs. Roby. And you say it is because host nation problems.
    Mr. Starr. Host nation problems.
    Mrs. Roby. When I talked to you last time, 3 months ago, it 
doesn't seem like we have made much progress, but I asked you, 
you know, what is your plan with the ones that you don't? If 
you have got host nation problems, are there other ways to get 
security there? And you said in your testimony, if we find that 
we don't have those types of protections--you listed adding DS 
agents, several other mitigating things--but you said if we 
don't find that we don't have those types of protections or 
that we think that those risks are too high, then we won't be 
there. So why have we not made progression on those four posts 
that you are stating now we still do not have those protections 
in place?
    Mr. Starr. In some cases, we have other types of 
protection. The host nation has stood up and given us high 
levels of protection. In some cases, I have a tremendous amount 
of other resources there, including Diplomatic Security agents 
and armed contractors that meet the threat. In some cases, we 
have made a determination that the host government is standing 
up and fulfilling its responsibilities, and while we would 
still like to have Marines there, the fact that we don't does 
not mean that we cannot continue. This is some of the things 
that we are looking at as we do this VP2 process, when we weigh 
why we are at a post, what the threats are, what resources we 
have overall, and as I say Marines are one tool in our tool 
kit.
    Mrs. Roby. Mr. Linick, I want to take Mr. Starr's answer 
and follow up with you. Do you think that is sufficient?
    Mr. Linick. My question is along the lines of the report, 
what are the plans? Where are the plans? Where is the 
methodology? What plans out there are there to negotiate with 
host governments that are unwilling to take us, those kinds of 
things?
    Mrs. Roby. And you have not gotten a clear answer from DS 
on exactly how this is going to be handled. Correct?
    Mr. Linick. All the recommendations are open at this time.
    Mrs. Roby. All the recommendations are open. And based on 
the questions from Ms. Brooks earlier, ``open'' means they are 
unresolved and there is no evidence there that they are doing 
anything to make it better?
    Mr. Linick. Well, actually, there are a number of open 
resolved recommendations. In other words, the Department has 
agreed in principle to comply, but there are two 
recommendations which are unresolved, which means we just 
disagree.
    Mrs. Roby. Of the six, there are four unresolved--excuse 
me, four resolved and two unresolved?
    Mr. Linick. That is correct.
    Mrs. Roby. But even the resolved, you have just gotten them 
to say that they want to do something, but you have no actions 
to back up their words?
    Mr. Linick. That is correct.
    Mrs. Roby. So we still have, according to Mr. Starr's 
testimony, we have four places, very dangerous places of the 
world where American lives are at stake because we don't have 
the proper security in place?
    Mr. Starr. Congresswoman----
    Mrs. Roby. This is for Mr. Linick. Is that correct?
    Mr. Linick. I have to accept those facts because I don't 
know independently whether that is true.
    Mrs. Roby. Recommendation six of your report recommends 
that DS Marine security guard programs conduct a staffing and 
resource assessment and judiciously allocate appropriate 
resources to facilitate compliance with the Benghazi 
Accountability Review Board Report to upgrade security for 
personnel at high-threat posts. Has this been done?
    Mr. Linick. Not according to the facts that I have heard.
    Mrs. Roby. So, in fact, the Department has yet to comply 
with Benghazi's ARB recommendation 11. Correct?
    Mr. Linick. We believe Benghazi ARB recommendation 11 
intended for there to be Marine Security Guards at all high-
threat posts.
    Mrs. Roby. And so I want to hear you say that is correct.
    Mr. Linick. Yes, that is correct.
    Mrs. Roby. Thank you very much. I have got 22 seconds left. 
I did want to touch a little bit on the local guard force, and 
let's see, real quick, Mr. Linick, if I can just get to the 
point with you, you had two findings in your report: A, 
security contractors did not fully comply with the vetting 
requirements called for in the contracts; and, B, the regional 
security officers at overseas posts took it upon themselves to 
vary the vetting and approval process and failed to ensure that 
the security contractors provided all the required 
documentation. That is correct?
    Mr. Linick. That is correct.
    Mrs. Roby. So did any of the security companies that had 
contracts fully perform all vetting required in their 
contracts?
    Mr. Linick. No. We looked at 87 personnel files, and none 
of them--none of the security contractors performed all of the 
vetting requirements contained in the contracts.
    Mrs. Roby. And of the six Embassies reviewed, did any of 
them allow guards to work before being fully vetted?
    Mr. Linick. Yes, a number of them allowed them to work 
without vetting.
    Mrs. Roby. Mr. Chairman, I just do not understand how this 
can be just 2 years after four Americans were killed in 
Benghazi, we have local guards that are not fully vetted that, 
clearly, Mr. Chairman, show that we have a severe security 
threat in very dangerous places where American lives are at 
stake today. Thank you so much. Thank you for being here.
    I yield back.
    Chairman Gowdy. I thank the gentlelady from Alabama.
    And the chair will now recognize the gentleman from 
California, Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    Thank the gentlemen for being here. I appreciate your 
service very much. Mr. Starr, I wanted to ask you, just for 
some historical perspective, because I think many Americans may 
be under the impression that what took place in Benghazi was 
extraordinary in the sense that we have never had attacks on 
our diplomatic facilities or tragedies like this in the past.
    Tragically, we have had a great many over the years, and I 
wonder if you could shed a little light on maybe the last 20 
years. How many times have our facilities been attacked? How 
many times has that resulted in injuries or fatalities? Is the 
problem getting worse because the world is now more unstable? 
It seems like there are more high-threat posts now than ever. 
Is that just an impression, or is that the reality? And what 
does that mean in terms of the prioritization you mentioned at 
the outset? And that is--the priority is for a diplomatic post 
to implement the policy of the United States--that has to be 
done in a way where we can protect our people, but they are 
there for a reason.
    And there are many posts where we are where we could ask 
the same questions. Why are we in Yemen? Why are we in Iraq? 
Why are we in any of these places that are inherently 
dangerous? There are foreign policy objectives in each of these 
places, as there was in Libya. We have increasingly difficult 
calls to make about where we post our people, what risks we are 
willing to undertake in furtherance of our policy, and it is 
one of the reasons I have such great respect for our people 
that are in the diplomatic corps, because they are at risk. 
There is just no avoiding it these days. Can you set a little 
of the historic trend for us? What has been our experience with 
violence at our facilities? To what degree is that phenomenon 
changing, and is it changing for the worst?
    Mr. Starr. We have more posts today categorized at high or 
critical threat for civil disorder or terrorism than at any 
time in my service in the Department. I think we are seeing a 
lot of different threats emerging. I don't think that is a 
surprise to anyone. We are challenged in many ways, but, again, 
going back to what we have been doing since Nairobi and Dar es 
Salaam, which was when Al Qaeda first came in our view full 
face, that we had to recognize that we had a determined 
nonstate enemy against us, a lot of the programs that we put in 
place and the buildings that we have built have helped make us 
safer and balanced that security.
    But, Congressman, as you say, over the last 10 or more 
years, we have had multiple, multiple attacks on our facilities 
and our people in Iraq, many, many attacks in Afghanistan. In 
Herat last year, we had a horrific attack with two truck bombs, 
eight suicide bombers trying to kill our people at the 
consulate in Herat. Our security systems worked. We killed all 
of them. We lost, tragically, some third-country national 
security guards and some Afghan police officers, but no 
Americans were killed in that.
    As has been alluded to here, at the same time as the 
Benghazi attack, we had huge crowds and mobs that were coming 
over our facilities and attacking our facilities in Cairo, in 
Tunisia, and in Sudan. And in the last two posts, 8 and half 
hours before the host country came to our support, our 
facilities held, and no Americans were injured. We have had and 
lost certain Foreign Service officers and one-off attacks, 
lone-wolf types of attacks, including John Granville in Sudan 
not too many years ago. We have had RPG attacks, truck bomb 
attacks, car bomb attacks, car bomb attacks on our motorcades. 
We have had aircraft that have been shot at.
    We have had almost innumerable attacks on our facilities 
over the last 20 years. And you are right; they are going up. 
It is a challenge. I would first say that it is a testament to 
the Foreign Service that our officers still want to get out and 
implement the important Foreign Service goals that we have to. 
It is a testament to their willingness to take new types of 
training and for the Department to take on these security 
risks.
    Congress has been a very important partner in how we have 
met these risks, particularly since the 1998 bombings in Dar es 
Salaam and Nairobi, and we appreciate that.
    We will continue to work on these things, but I don't think 
it is a surprise to anybody that we are living in a world that 
has a high degree of instability in many countries. There is a 
lot of open discussion about how extremism is drawing in new 
youth, disaffected personnel, and has a calling that is being 
heard by certain people. So we have our challenges cut out for 
us, and we are going to do the best we can to meet those 
challenges while still implementing the foreign policy of the 
United States government.
    Mr. Schiff. Thank you. Mr. Starr, let me drill down on a 
couple specifics that I think have manifested themselves in 
light of this increasing threat environment and increasing 
number of high-risk posts, and that is more people that are on 
temporary assignment and people that are of short duration in 
some of these high security threats. Many of us that have 
visited our diplomatic facilities overseas meet people that are 
there for short tours. You talked about one way of trying to 
fill the gap with retirees. It may be desirable to bring in the 
retirees who have great experience, but why is that necessary? 
Are we having trouble attracting enough personnel to go to 
these high-threat posts? Is there a mutually reinforcing cycle 
where people who go to a high-threat post therefore get 
recommendations from people in those posts for future 
assignments and are kind of locked into high-threat posts? What 
is the impact on our personnel of the proliferation of 
dangerous places where they work?
    Mr. Starr. Congressman, the situation that we face is that 
most of these high-threat posts are unaccompanied. We are 
asking more and more of our personnel to take unaccompanied 
tours away from their families for longer periods of time. 
Generally, these have been 1-year tours, but we are now at a 
point where we are asking more of our officers to serve 2-year 
unaccompanied tours overseas without their families. We have 
rotated many of our Foreign Service officers and many of my 
security agents and my security personnel through multiple 
hardship tours without their families at these high-threat 
posts at this point.
    The Foreign Service has a certain amount of personnel. We 
have not had to rely particularly on very many TDY personnel. 
Some of the other agencies that are present at our posts 
overseas have greatly relied on temporary duty personnel, not 
so much the Department. We have had officers that stood up and 
continue to stand up and serve at these places. But it is not 
without cost. It is not without, in some cases, fracturing 
families, or are we asking them to serve tour after tour in 
high-threat posts multiple times at these places? Do we have 
behavorial problems and other things that are coming out of 
this? And the answer in some cases is yes.
    In many cases, where we have a need to put our best people 
in some tough places where we are asking sometimes for 
temporary personnel but sometimes for longer periods of time, 
the Department is asking to bring back some of the retired 
people. Somebody is going to use that vast experience that they 
have got, and they are going to pay them for it. We would like 
to be able to avail ourselves of that as well if possible.
    Mr. Starr. But I do think that the State Department has 
been at the forefront of filling our positions with mostly 
full-time assigned personnel. Although we, too, rely on TDYs 
occasionally.
    Mr. Schiff. Just one last question, because I only have a 
minute left, I wanted to follow up on. I think we all recognize 
the importance of having high-level attention paid to the ARB 
recommendations by the top principals in the State Department. 
And I fully concur that Secretaries Clinton and Kerry have 
embraced and even established this as a best practice.
    You had mentioned that it was codified in the Foreign 
Affairs Manual very recently. But the embrace of that by those 
top principals, that was from the very beginning. In fact, that 
was a standard that they set, was it not?
    Mr. Starr. I think it was very evident from the statements 
of Secretary Kerry and our principals that we were in this 
together. And everybody had to get on board.
    What we are now doing is bringing it around to the fact of 
putting it in the policy. And Steve has pointed out that is 
important. We need to make those changes. We need to codify 
this going forward. And we are doing that. But I agree with you 
that I have spent many hours and many meetings with the Deputy 
Secretaries and many others. And I have had discussion with the 
Secretary about what security means to us.
    Mr. Schiff. Thank you, Mr. Chairman.
    I yield back.
    Chairman Gowdy. Thank the gentleman from California.
    The chair would now recognize gentleman from Illinois, Mr. 
Roskam.
    Mr. Roskam. Thank you, Mr. Chairman.
    Secretary Starr and Mr. Linick, thanks for your time.
    Secretary, I find your argument inconsistent in this sense. 
And I just want to bring to your attention a couple of 
statements that you have made to my colleagues, some of the 
realities that I perceive, and walk you through my thinking.
    A couple of minutes ago, you told Ranking Member Cummings 
that there has been a culture change in the Department. And if 
there has been a culture change in the Department, that 
presupposes that you basically offer everything up that is an 
obstacle and to recognize and to reflect, look, this is a 
problem, and we are going to rid ourselves of every single 
problem that was an obstacle to a remedy.
    Couple of minutes ago, you made the argument to Mr. 
Schiff--not an argument, but you made the point, increasingly 
dangerous world. Nobody here disagrees with that. It was 
compelling you used words like ``extremism,'' ``disaffected 
youth,'' and these posts that are unaccompanied because they 
are miserable places to go, presumably.
    And yet one of the things that is the remedy to that is the 
waiver authority in recommendation No. 13 that the department 
continues to cling to.
    So the recommendation of the Best Practices Panel in No. 3, 
it says this, it says, Waivers to establish security standards 
should only be pursued subsequent to the implementation of 
mitigating measures as agreed by Regional Bureau or other 
program managers advised by D.S. and as informed by the 
Department risk management model.
    That is a great idea.
    Now, here is the problem. The Department--and I don't know 
where you were in the discussion. But the Department has said, 
We don't think that is a great idea. In fact, we think this: In 
certain cases involving national security--I am going to come 
back to that because that is such an ambiguous term--an 
exception can be approved based on the mitigating measures 
already in place--presuming that there are mitigating measures, 
I might add--even though future mitigating measures may be 
planned to bring the facility even closer to or in conformance 
with the OSPB physical security standards. In such cases when 
time is of the essence to further U.S. national security 
interests, the Department requires flexibility to grant an 
exception prior to the implementation of planned mitigating 
measures.
    So here is my point. That is a gaping exception. That is an 
exception, Mr. Secretary, that anything can get through. And I 
mean anything.
    So if it is simply, look, this is national security, all of 
a sudden, that becomes a laminated hall pass for somebody at 
the Department of State to say we are declaring this a national 
security emergency. Yeah, we have gone through to the whole 
process, the process that you described that is identifying the 
high risk--high-threat, high-risk posts, going through VP2. So 
far, there is no restraining influence.
    Then there are two choices, either recharacterize something 
as a special mission compound or something else or go through 
another process.
    And even within the other formalized process, there is 
still this waiver authority. And people around you, Mr. 
Secretary, are saying, Give it up.
    And by your own argument, I might add, you are making the 
argument that you should give it up, that there is a culture 
change that is so big that you are describing it to Ranking 
Member Cummings and a world that is so dangerous that you are 
using all kinds of words that we all agree with. So why in the 
world hang on to this thing?
    Mr. Starr. For a very specific technical reason, sir. We 
pick a place. Sometimes the best that we can get in a short 
duration if we are going to go back in. We have to make 
decisions on what needs to be done and what levels of things we 
can't possibly do.
    I can't create 100 feet of setback when there isn't 100 
feet of setback. We may have to accept that.
    And at a certain point we have to make decisions: Are we 
going to accept that, do the rest of the things that we need to 
do, or are we just going to say, no, we are not going to accept 
that? And then continue looking until we find a place.
    By the way, I have never found a place to lease in 30 years 
in the Department that actually had a hundred feet of setback 
that was available.
    Mr. Roskam. Secretary Starr, what is different than the 
reasoning that you just articulated to me just now from the 
reasoning that put us in Benghazi and that allowed four people 
to be killed? What is different?
    Mr. Starr. There is--I will admit that there is some 
measure of risk in what I am saying. But----
    Mr. Roskam. Huge risk, based on what you told Mr. Schiff.
    Mr. Starr. No, I don't agree that it is huge risk. I think 
that we have to----
    Mr. Roskam. You told him it was a dangerous world filled 
with extremists and disaffected youth. That was 5 minutes ago.
    Mr. Starr. True.
    But I think that we have to be able to make decisions to 
progress. In some cases, if we are going to lease a new 
facility, we are going to have to admit that we are going to 
have to give waivers to certain things in order to fulfill 
that.
    Mr. Roskam. So what is different about what you just 
articulated.
    Mr. Starr. The difference is that we have to do the 
waivers, that there has to be a decision process.
    Mr. Roskam. Yeah. But then why don't you agree to the 
mitigation? That was the key finding of the Best Practices.
    Mr. Starr. Because in some places, we can't get the 
mitigation.
    Mr. Roskam. If you can't get the----
    Mr. Starr. I can't rare----
    Mr. Roskam. Look.
    Mr. Starr. I cannot get a blast-proof building unless I 
build it.
    Mr. Roskam. Then why do we ask people to go to these 
places?
    Mr. Starr. Because in some cases, the foreign policy 
imperatives of why we need to be there mean that we are going 
to take reasonable levels of risk.
    Now, what we have to be careful is that we don't take 
unreasonable levels of risk. There has to be an open and 
fulsome discussion about why we need to be there. What risks 
are we really running? Do you really understand the threats? If 
you put people----
    Mr. Roskam. Look, Best Practice Panel recommendation is 
trying to codify that risk discussion.
    And if you rewind the tape today and you listen to the 
answers that you gave--and I was carefully listening to this. 
Earlier in the last--in our last discussion time, the last 
hearing, Mrs. Roby asked you a question, and you and I had an 
exchange about your answer.
    But just to refresh your memory, she asked, Is it possible 
for the State Department to open a temporary residential 
facility? And you said, We don't have any at the moment; I 
can't imagine that we would or that I would approve it. You, 
singularly, Mr. Starr.
    Earlier today, in part of the exchange, you said, I am 
committed to keeping our people as safe as possible.
    Now, I get it. That is opening statement language, and 
there is nothing wrong with that.
    You then told Ms. Saanchez, I turned that down.
    You then told Mr. Jordan, I have access.
    And your bristle was up a little bit because he was pushing 
you around. But you were saying, I have access to the Secretary 
of State.
    Now, here is the problem: When you are gone, that next 
person will be confronted with the same discussion that you 
admitted is basically that there is nothing really different 
about the thinking that went in on Benghazi, to your knowledge, 
because you told us you weren't there.
    I am telling you that I think it is very similar, that line 
of thinking that says, yes, it is dangerous, got to get 'em, we 
gotta go, and, yeah, there is no time. We got to check these 
boxes and yeah, yeah, yeah.
    And you have got this national security exception that the 
exception like I have described is this big. And we are right 
back into this situation.
    Notwithstanding the culture change that you have offered 
up. Do you see where this is going? Which is why people around 
you are saying Give it up. Offer it up. You don't need it.
    Mr. Starr. I think that that relying on one 
recommendation----
    Mr. Roskam. This is not one recommendation.
    Mr. Starr. No, that is one particular recommendation that 
we don't agree with because of a technical reason that we have 
to be able to say in advance and write the waivers and say, We 
are going to accept waiving that security standard, gives us 
the ability to do these things.
    Mr. Roskam. Look, in your answer, though----
    Mr. Starr. The larger issue, though, is things like VP2 and 
having processes in place.
    And I recognize that this one particular one is confusing 
in terms of it seems like we don't want a process.
    Mr. Roskam. Oh, it is not confusing to me.
    Mr. Starr. It seems like we don't want a process there. But 
the fact is there is a process there.
    Mr. Roskam. I don't think there is anything confusing about 
this. You are basically saying, we are not going to mitigate--
you are not basically saying. You are saying we are not going 
to mitigate. And these answers that the State Department has 
offered, it presupposes mitigation that is already in place. 
And it is relying on a speculation of possible mitigation.
    In fact, it says it may be planned. May be planned.
    That is speculation beyond speculation. This is speculation 
upon speculation. Do you see how it is that people are coming 
to the conclusion that in a post-Starr era, that, like it or 
not, is coming, in a post-Starr era, when special committees 
are not around, there is going to be every bit of possibility 
and pressure based on the national security exemption, which as 
I have described it is this big. All of a sudden we are right 
back into this situation and we are grieving the loss of life.
    I ask you to revisit this. I ask you to reconsider this. 
This is something that you are clinging to. And that you ought 
not.
    I yield back.
    Chairman Gowdy. Thank the gentleman from Illinois.
    Chair now recognizes the gentleman from Maryland.
    Mr. Cummings. You know, Mr. Starr, Mrs. Roby asked Mr. 
Linick about the vetting of local security guards. I am 
really--and I thought she had an excellent line of questioning.
    I want to make sure I understand what is going on here, 
because when the dust settles, again, I want to make sure our 
people are safe.
    When we talk about the vetting, can you tell me why there 
is no vetting in those--I think it was four countries, Mr. 
Linick.
    Mr. Linick. It was six countries.
    Mr. Cummings. Six.
    Mr. Linick. Six contractors.
    Mr. Starr. Congressman, the answer is that it is not true 
there was no vetting. What the report points out is that they 
didn't fully comply with the vetting requirements.
    There are places around the world where we work that our 
normal vetting requirements, things like requiring a police 
check, can't be accomplished. There are places where we are or 
the contractor is not allowed to perform a background 
investigation. This is, of all places, in one place is Italy. 
We cannot vet contractors in Italy because of personal rights 
and statements that they have in law. It does not mean that we 
don't do our best job to vet the people that we bring on board.
    Now, I want to say one thing clearly. When Steve and his 
inspectors go out and they find a circumstance where they say, 
Hey, we don't think the contractor is living up to the vetting 
requirements, I want to know that and we take that seriously 
and we go back and say, Okay, what is happening here?
    And, in some cases, we may find that there is a reason that 
the contractor isn't fully vetting the people. He may have to 
use alternate methods. But there may be cases and Steve's 
people may find out that he is trying to put some shortcuts in 
place. He doesn't want to pay for the vetting. And we need to 
know those things. And that is valuable guidance that Inspector 
Generals' teams are bringing back to us.
    So I think it is a dual answer. One, I want to know what 
they are finding because these inspections are part of our 
backstop, and they are important to us.
    Second, there may be reasons in some cases that there may 
not be a full vetting. Cases that we can't do it.
    There are different types of workarounds. And certain 
places because we can't do police checks or they don't make 
any--you just buy a police check, essentially. We are looking 
at family ties. You know, does everybody know this person? Does 
this person really want to work at the Embassy? And people have 
known his character for a long time. So there may be 
workarounds.
    And, finally, there are places where we know that we have 
significant issues hiring local employees to be guards. And, in 
some of those places, we made the decision that we bring in 
third-country contractors at tremendous expense because there 
is no other way to get the vetting done, and we don't trust the 
people.
    So it is a holistic answer. I don't want to say that we 
don't value, and I necessarily disagree with the IG on some of 
these things. They play a really important role. The inspection 
process is important to us. And when Steve's people come back 
and say, Hey, something is not right here, we look at it. We 
try to correct it as fast as possible. Or we have an 
understanding that maybe it doesn't quite meet the needs, and 
then we will have an open recommendation and we will go back 
and forth with the inspector on that.
    I would note, sir, that our guards have stood by us through 
thick and thin. Some of them have stayed years after we have 
closed our facilities and protected them.
    We have never had a green-on-blue incident with any of our 
guards. In many cases, they have showed loyalty to us far 
beyond what we could ever do.
    Are our guard programs perfect? No. And we strive to keep 
them up to snuff every single day, try to require the highest 
possible compliance with the rules and regulations that we put 
in place.
    And Steve's people play an important role in keeping us 
there. So it is, all told, I need those guards, and we are 
going to continue doing that. And I think we are doing 
overwhelmingly a good job. Are there some things we need to 
work on, yes, and when we find them, we are going to work on 
them.
    Mr. Cummings. Are you familiar with the June 2014 Inspector 
General's report with regard to an audit of the Department's 
oversight of the vetting process used for local security 
guards? You are familiar with that audit?
    Mr. Starr. Yes, sir.
    Mr. Cummings. And he reported and explained that 
contractors are challenged in vetting local security forces 
because of local privacy laws, lack of credit reporting 
services, and difficulty in obtaining official records in the 
host country.
    And how do you operate within those kind of constraints? 
You go for--you do as much as you can and then you--I mean, how 
do you--you want to vet. And so is there a certain point where 
you say, well, there is just not enough vetting that we can do 
that we can hire these folks? How does that work?
    Mr. Starr. When we make a determination that we really 
can't do any vetting, and we have no confidence in the guard 
force, that is when we may turn to this other alternative, 
third-country nationals, that we bring in from another country 
that we can vet if we can get permission from the host country 
to do that.
    In many cases, it is more subtle than that, sir. As I say, 
when the police check, it may not be worth the piece of paper 
that it is printed on or where there are privacy laws that we 
can't do things, in many cases we look at who knows this 
person? What recommendations have they got? Are they family? 
Are they tied to the Embassy in some place?
    We have got to have guards. We have got to have people 
manning those posts. We have got to have people that are, you 
know, checking the people when they come in and checking their 
packages and inspecting the cars.
    And even when some of those vetting procedures may not 
comport with what we do in terms of a security clearance back 
here in the United States, we have a great deal of faith and 
confidence in them, even though, in some cases, we may not meet 
every requirement. We may not be able to cross every T and dot 
every I. We have to take at a certain point some levels of 
risk.
    Mr. Cummings. Just one other thing, Mr. Starr. We have 
spoken extensively about risk management. During our last 
hearing, you spoke about how important it is to assess both the 
willingness and the capability of the host country forces to 
provide local security.
    How does the State Department consider the potential issues 
with local guards today when considering whether to operate in 
a certain country? And how has that changed since Benghazi?
    Mr. Starr. I don't know that that has actually changed 
since Benghazi, sir. I would say that it has been an ongoing 
issue for us. There are some countries that will not allow us 
to have guard contractors. In some cases, we can hire them 
directly. There are some countries where we have made that 
determination that because of counterintelligence issues or 
because we may think that the guard force could be infiltrated, 
and we don't have faith and confidence that we may use third-
country contractors, this has been an ongoing issue since 2002.
    We look at every country very carefully. We make a 
determination how we can best fulfill the security requirements 
in that country, whether it is a contract, whether it is a PSA, 
direct-hire guard force, whether it is a third-country national 
guard force.
    We rely in great part on the experience of the RSOs in the 
field and the contracting officers and the general services 
officers to give us advice here in Washington and listen to 
them and then make recommendations and decisions based on the 
best knowledge that we have.
    Mr. Cummings. Let me say this. I want to thank both of our 
witnesses for being here today. We really do appreciate it.
    And we appreciate your willingness to work hard every day 
to make our people safer. I know, Mr. Starr, that we have--I 
know we pressed you hard today. Please recognize and understand 
that we do so to ensure the Department's feet are held to the 
fire because it is important for all of us that we do this 
right. And I remind you again it is our watch. Your testimony 
in September and October update you have provided us, we 
appreciate. And your testimony today shows continued progress. 
And we appreciate your willingness to work with us and anyone 
else who helps to make our Embassies safer. So I want to thank 
you for that.
    And I want to thank you, Mr. Linick, for all that you are 
doing because you, too, help us keep these feet to the fire.
    With regard to the ARB, I think we are making good 
progress. But I want to make sure everything is done. And I 
know that there are some ARB recommendations, quite a few of 
them, from past ARBs. I think we need to take these 
opportunities and try to address as much as we possibly can, 
even back then, because those things are still ongoing. Right, 
Mr. Linick There are still problems.
    Mr. Linick. Yes, that is correct.
    Mr. Cummings. So, again, I want to thank both of you again.
    Mr. Starr, don't forget that we want to know when those 
other recommendations of the ARB will be completed and to let 
us know when they are, in fact, completed. All right? Okay?
    Mr. Starr. Yes, sir. We will get those answers to you.
    And, sir, I expect to be pressed pretty hard. This is tough 
business, and it is important business. And you can press as 
hard as you want. Myself and Steve, we are both pretty tough 
guys. And we appreciate even the tough questioning.
    The opportunity to put those things on the table with you 
in an important committee like this is important to me, too.
    Mr. Cummings. Thank you very much.
    Chairman Gowdy. I thank the gentleman from Maryland.
    Secretary Starr, I was going to pursue a line of 
questioning. And I will get to that at some point.
    But when Jimmy Jordan asked you why were we in Libya--and I 
am not going to ask you the same question because you made it 
clear you are not the right person for us to ask. And I am 
going to respect that. But I want to make sure you understand 
why Jimmy would ask you that question and why all of us are 
asked that question with alarming frequency in our districts.
    The last hearing we had, you did a very good job of 
explaining to those of us who are not in diplomacy that you 
have to weigh and balance. I think you said you have to weigh 
and balance the policy with the risk to determine whether or 
not you should have a presence.
    And it just struck me that there is no way you could 
possibly weigh and balance policy versus risk if you don't 
understand what the policy is.
    And then I started thinking, when Jimmy was talking, I 
wonder where the question came from.
    And I knew I had seen this somewhere. Do you know someone 
by the name of Ben Rhodes?
    Mr. Starr. I don't know Ben Rhodes personally; I know the 
position that he was filling.
    Chairman Gowdy. I don't know him either. But there was a 
memo 3 days after four of our fellow Americans were killed in 
Benghazi. And I will skip over goal number one of his 
communications memo. Actually, I won't. Because it says to 
convey that the U.S. is doing everything we can to protect our 
people and our facilities.
    And it just struck me, if you really were doing everything 
you could, we would not have had 50 separate recommendations 
after he wrote that memo and this now the second hearing to 
make sure that those recommendations were implemented.
    But I am going to skip over that goal to get to the second 
goal.
    The second goal, Secretary Starr, was to underscore that 
these protests are rooted in an Internet video and not a 
broader failure of policy.
    So I am going to skip over the video part of that for now 
and get to the second clause, the dependent clause in that 
sentence, ``not a broader failure of policy.''
    How can we judge whether or not a policy has failed or 
succeeded if no one tells us what the policy objectives were?
    How can we do that?
    How can you weigh and balance the risk?
    Jimmy's gone through the risk, members on the other side 
have gone through all the escalating episodes of violence in 
Benghazi. And it may well be that the reason for us to have 
been there supersedes all of those episodes of violence. But 
how? How can a committee of Congress know that if no one tells 
us why we were there?
    So you are not the right person to ask. Who would you ask 
if you were us? Who should we bring to explain why were we in 
Libya?
    Mr. Starr. The policy questions I think should more 
properly be directed to the NEA Bureau, Near Eastern Affairs 
Bureau that had responsibility for that.
    Chairman Gowdy. I am looking for a name, preferably. Who 
would be able to tell us what policy we were pursuing in Libya 
was so important to skip over all the things that Mr. Roskam 
pointed out and to weigh and balance the episodes of violence 
in such a way that the presence outweighed the violence.
    Mr. Starr. At the risk of having her never talk to me 
again, the Assistant Secretary for NEA Anne Patterson, I think, 
is the highest-ranking person in the NEA Bureau, and at the 
time of the attack was the U.S. Ambassador in Egypt. And I 
think Anne or one of the Deputy Assistant Secretaries in the 
NEA Bureau could give you the best answer on that.
    Chairman Gowdy. All right. Well, I thank you for that name.
    And I want to make sure you and I are on the same sheet of 
music.
    Do you understand why we would have that question? I mean, 
do you think that that is a fair and legitimate question for us 
to ask, what the policy was, so we can then weigh and balance 
it, as you instructed us to do?
    Mr. Starr. I think that is a reasonable question, sir.
    Chairman Gowdy. Okay, well, thank you.
    Now, Secretary Starr, last time you were with us we not 
only discussed the most recent ARB recommendations, but we went 
back and highlighted some from the past. And one in particular 
from 1999 caught my attention: The Secretary of State should 
take a personal and active role in carrying out the 
responsibility for ensuring the security of U.S. diplomatic 
personnel abroad. It is essential to convey to the entire 
Department that security is one of the highest priorities.
    And Secretary Starr, just in case somebody missed that part 
of the 1999 ARB, the authors reiterated that point with this: 
The Secretary of State should personally review the security 
situation of Embassies and other official premises, closing 
those which are highly vulnerable and threatened.
    Two previous ARB recommendations that you could essentially 
lay on top of one another. They are identical.
    And I don't think they are identical because they forgot 
that they put the first one. I think they are identical because 
they were trying to send a message to us. This is really 
important. And it is deserving of the attention at the highest 
levels of the Department.
    So here is what I want to do. I want to ask you, I want to 
know, specifically with respect to Benghazi, in October of 
2011, there was a specific request for a machine gun to defend 
our facility in Benghazi. And, in August of 2012, just a month 
before the attack on our facility, a document again lists a 
machine gun as equipment needed and requested.
    Do you know who denied the requests for those machine guns 
and why?
    Mr. Starr. No, sir, I do not.
    Chairman Gowdy. Who should I ask and find out?
    Mr. Starr. You can ask me, sir, and I will go back and 
research that.
    Chairman Gowdy. Would you do that for me?
    Mr. Starr. Yes, I will.
    Chairman Gowdy. Have you watched the video surveillance 
from the night of the attack?
    Mr. Starr. I have.
    Chairman Gowdy. Without going into great detail, would you 
agree with me, or do you at least see why somebody on the 
ground might have asked for that piece of equipment, given what 
you and I have seen in the surveillance video? I mean, thinking 
back to the video, can you see how that might possibly have 
come in handy that night?
    Mr. Starr. In my review of what happened and looking at 
that, I think the agents made the right decisions at that point 
not to engage. I think that they were equipped with fully 
automatic weapons, not quite the rate of fire power of a 
machine gun. I agree that, you know, machine guns can be very 
menacing and have a tremendous effect. But, in this 
circumstance, I'm not sure----
    Chairman Gowdy. They wanted them for the rooftop. They 
wanted them for the rooftops.
    I want you to go back if you would and watch the video and 
see whether or not you conclude the same way that I concluded 
or not. And I appreciate if you could go back and, with 
specificity, I want to know who reviewed that request, who 
denied that request, and is there an appeals process within the 
State Department in light of these two previous ARB 
recommendations that the Secretary of State should take a 
personal and active review that the Secretary of State should 
personally review the security situation. Is there an appeals 
process where someone hypothetically could say, you know what? 
You are giving me a no, but I'm going to take this up the food 
chain. Does that exist?
    Mr. Starr. Yes.
    Chairman Gowdy. All the way up to the highest levels of the 
State Department?
    Mr. Starr. I will tell you that the one thing the 
Department has that very few other agencies has is something 
called the dissent channel. And it is a channel that we highly 
prize and that if you disagree with policy or you disagree with 
a decision, that officers in the Department of State at all 
ranks and all locations have the ability to send something 
directly in at the highest levels through a dissent channel 
cable and say, I disagree with something, and it goes to the 
highest level.
    Chairman Gowdy. In June and July of 2012, mere months 
before the attack in Benghazi, the Ambassador himself requested 
a security team be extended to stay longer.
    Mr. Starr. Security team in Tripoli, sir, not Benghazi.
    Chairman Gowdy. In Tripoli, yes. But it doesn't take much 
to imagine him traveling from Tripoli to Benghazi with an 
increased security presence, does it? If there were more 
security folks in Tripoli, and he is traveling to Benghazi, it 
is not that much of a stretch to surmise that some of them may 
have actually traveled with him.
    Mr. Starr. When he traveled to Benghazi in that trip, sir, 
he took additional RSOs with him. There were additional RSOs 
that could have gone as well but they made the determination--
--
    Chairman Gowdy. For a grand total of how many?
    Mr. Starr. Five at post.
    Chairman Gowdy. All right. And how many were there before 
the foot print was reduced?
    Mr. Starr. Three.
    Chairman Gowdy. No, no, no. How many were there before 
their deployment ended?
    Mr. Starr. I don't think there was ever more than five at 
that post, sir.
    Chairman Gowdy. In Tripoli?
    Mr. Starr. No, I am sorry. In Benghazi, I am sorry.
    Chairman Gowdy. I am talking about--I am talking about that 
the Ambassador would have had access to.
    Because you and I agree the number that he had access to 
was reduced, despite the fact that he asked for more.
    Mr. Starr. The military team, the SST team had departed. 
Additional DS agents were put into post.
    Chairman Gowdy. What I want you to find out for me is this, 
because this is a Presidentially-appointed Ambassador who made 
a pretty plaintiff pleading. In fact, I will quote it to you: 
``Our efforts to normalize security operations have been 
hindered by a lack of host nation security support, an increase 
in violence on foreign targets, and neither compound meets OSPB 
standards.''
    Do you know would said that?
    Mr. Starr. From your context, I would think it would be the 
Ambassador.
    Chairman Gowdy. It was the Ambassador himself in a--what I 
would describe as a pretty plaintiff pleading for some help. 
And this is the response he got: No. I do not not want them to 
ask for the team to stay.
    Do you know who said that to the Ambassador, the 
Presidentially-appointed, Senate-confirmed Ambassador?
    Mr. Starr. It was referring to the SST and that might have 
been Ambassador Kennedy.
    Chairman Gowdy. It could have been. But it was actually 
Charlene Lamb. And Charlene Lamb is not, has not been, and is 
not likely to ever be the Secretary of State for this country.
    And so when I see her responding to a Presidentially-
appointed, Senate-confirmed Ambassador who is making a pretty 
plaintiff pleading for some extra help and she says, ``Do not 
not make that request,'' I want to know whether the Ambassador 
had the ability to go above her head and go straight to the 
top. And if not, why not?
    Mr. Starr. The Ambassador certainly did have the ability to 
go over her head.
    Sir, I do think that the one salient point that must be 
discussed is that there was quite a bit of discussion about 
relieving the SST, the military team that was there and only 
provided static security at the compound, with additional 
diplomatic security agents who could provide static security 
and mobile security. I think that was why the decision was made 
to release the SST. We were replacing it with personnel that 
actually had more capabilities.
    Chairman Gowdy. Well, Secretary Starr, my time is up. But 
sometimes when everyone is to blame, no one is to blame. And 
part of the frustration that Mr. Roskam I believe so eloquently 
remarked on today was the designation of the facility itself. 
And then you have our heretofore failure to understand what 
policy would have been so important----
    You testified that we have how many un-personed posts right 
now? Five? Did I hear you correctly? Five? You were going 
through a series of numbers. And you said, Well, five of those 
you can discard because actually there is no one there.
    Mr. Starr. Correct.
    Chairman Gowdy. So we do close facilities.
    Mr. Starr. Yes, sir.
    Chairman Gowdy. And I am assuming that someone did the 
weighing and balancing on those five and decided, you know 
what? Through the miracles of technology, or whatever, we don't 
have to have a physical presence there.
    So you can understand why we would like to know what 
weighing and balancing went on with respect to Libya. And I 
want to know who saw these requests for extra equipment and 
personnel, who denied them, and whether or not you believe--
and, inspector general, you can help here, too--whether or not 
you believe that there is a culture in the State Department 
where there would be any consequences for following the dissent 
channel, because some companies do say, ``Sure, I have an open 
door policy,'' but sometimes when you walk through that open 
door, your career takes a hit.
    With that, I want to thank the ranking member and all the 
other members.
    Thank both of you.
    You and I get together privately. You discuss a reasonable 
timetable for getting answers to those questions.
    And, with that, the members would have five additional days 
to put whatever they want, any questions, in the record.
    Thank both of you for your time.
    Mr. Starr, in your case, twice. And if you would convey to 
the men and women who work for the State Department how 
grateful all of us, irrespective of politics, are for their 
service.
    And, with that, we would be adjourned.
    [Whereupon, at 12:59 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                             [all]
                             
                             
</pre></body></html>
